<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND
                 HOUSING  AND  URBAN  DEVELOPMENT,  AND
                  INDEPENDENT AGENCIES APPROPRIATIONS
                                FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES

                    JERRY LEWIS, California, Chairman

TOM DeLAY, Texas                     LOUIS STOKES, Ohio
JAMES T. WALSH, New York             ALAN B. MOLLOHAN, West Virginia
DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
MARK W. NEUMANN, Wisconsin           
ROGER F. WICKER, Mississippi         

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  Frank M. Cushing, Paul E. Thomson, Timothy L. Peterson, and  Valerie 
                        Baldwin, Staff Assistants
                                ________

                                 PART 3

                       NATIONAL SCIENCE FOUNDATION

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-932                      WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          












                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director














  DEPARTMENTS OF VETERANS AFFAIRS, HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                          Wednesday, April 1, 1998.

                      NATIONAL SCIENCE FOUNDATION

                               WITNESSES

NEAL LANE, DIRECTOR
VERA RUBIN, MEMBER, NATIONAL SCIENCE BOARD
JOSEPH BORDOGNA, ACTING DEPUTY DIRECTOR

    Mr. Lewis. The meeting will come to order.
    Today, we will be taking testimony from the National 
Science Foundation on their fiscal year 1999 budget request of 
$3.773 billion; an increase of $344 million or nearly 10-
percent over fiscal year 1998's funding level.
    Testifying again this year for what appears the last time 
as Director of NSF is my friend, Dr. Neal Lane. I would hasten 
to add that this will not, however, be the last time he 
testifies before the Committee.
    I will have the pleasure of introducing him next year as 
the President's Science Advisor at the Office of Science and 
Technology Policy. Dr. Lane, welcome back.
    Dr. Lane. Thank you.
    Mr. Lewis. I might mention in connection with that, this 
will be Louis Stokes' last year with us. So, your exchange 
today probably will not be the last one personally, but in 
terms of a formal setting, and as you know, Mr. Stokes has had 
a long interest in the work of the National Science Foundation.
    Also testifying this year on behalf of the National Science 
Board is Dr. Vera Rubin. In addition to being a distinguished 
member of the Science Board, Dr. Rubin is an astronomer with 
the Carnegie Institution of Washington.
    It is my pleasure to welcome Dr. Rubin today. In a moment, 
I will recognize you to introduce your other associates, Dr. 
Lane. In the meantime, any comments might be presented by 
friend Louis Stokes.
    Mr. Stokes. Thank you very much, Mr. Chairman.
    Good morning, Dr. Lane and Dr. Rubin. Director Lane, it is 
a real pleasure for me to once again welcome you and Dr. Rubin 
before the Committee. This will be the last time that you 
appear here in your current position as head of the Science 
Foundation.
    Although the Country will lose the benefit of your 
experience at the National Science Foundation, the President of 
course will certainly continue to have your wise counsel once 
you take up your new duties as the head of the White House 
Office of Science and Technology Policy.
    Your tenure to NSF has been marred by many challenging and 
fascinating program issues. I think you have met them 
forthrightly and intelligently. I have always enjoyed the 
personal relationship that you and I have had during your 
tenure in this capacity.
    As the Chairman said, this is an agency in which I have 
some very special concerns. During the course of the 
opportunity we have today, this morning, this afternoon, I tend 
to pose some questions relative to those areas.
    We will get into some in-depth discussions relative to 
them. I want to take this opportunity to welcome you here this 
morning. We look forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Stokes, before proceeding, I just wanted to 
note for the record that the Committee's responsibility 
relative to the Bosnia and Disaster Supplemental, as well as 
the Supplemental for the IMF made it necessary to reschedule 
this hearing originally planned for last week.
    I want you to know that I very much appreciate your 
cooperating with that change in schedule. It is important to us 
to recognize that the Committee has a great interest in your 
work. We did not want to have that conflict to literally ruin 
all of these sessions.
    With that, let me call on Dr. Lane to introduce his 
colleagues and present whatever testimony he would like. We 
will include your entire testimony in the record. As you know, 
Dr. Lane, if you would summarize that or whatever, from there 
we will proceed with questions.

                      Opening Remarks of Dr. Lane

    Dr. Lane. Thank you, Mr. Chairman.
    Mr. Stokes and members of this subcommittee, I very much 
appreciate the opportunity to testify on the NSF budget request 
for fiscal year 1999. As you have indicated, with me today at 
the table is Dr. Vera Rubin representing the National Science 
Board; and Dr. Joe Bordogna, the Acting Deputy Director of the 
Foundation and a distinguished member of the engineering 
community who has led the Engineering Directorate at the 
National Science Foundation for a number of years. Then we have 
in the room the senior staff of the National Science 
Foundation, the Assistant Directors and the heads of the other 
offices who I may call on to help me with questions, who I will 
not take time to introduce by name.
    Before I begin my testimony, I would like to turn to Dr. 
Vera Rubin for her remarks from the perspective of the National 
Science Board. Is that okay?
    Mr. Lewis. Yes, that is perfectly fine. Dr. Rubin, welcome.

                     Opening Statement of Dr. Rubin

    Dr. Rubin. Thank you. Thank you, Mr. Chairman.
    Chairman Lewis, Ranking Member Stokes, and Members of this 
subcommittee I appreciate the opportunity to testify before you 
today.
    I am Dr. Vera Rubin, Member of the National Science Board 
and an Astronomer at the Department of Terrestrial Magnetism of 
the Carnegie Institution of Washington.
    I would like to take this opportunity to convey to you some 
of the excitement and value to the nation of the research and 
education activities that will be supported by the National 
Science Foundation's fiscal year 1999 budget request.
    I will also mention some of the Board's help in developing 
this budget in trying to understand possible effects of changes 
in Federal agency research programs on the broader picture of 
Federal support for research. First, however, I would like to 
thank you and this subcommittee for its strong support of the 
Foundation in the past.
    Your continuing commitment to a strong national effort in 
research and education is extremely important to the NSF as we 
carry out our various responsibilities.
    The National Science Board is a 24-member body appointed by 
the President for six-year terms. We represent a broad cross 
section of the Nation's leaders in science, engineering, and 
education. Since the founding of the NSF in 1950, the Board has 
exercised two roles; that of a national policy body and that of 
a governing body for the Foundation.
    In many respects, the latter role is similar to that of a 
corporate board of directors. But as a Federal entity, we 
operate within the framework of policy guidance established by 
the Congress and the Administration.
    To illustrate our national science policy role, let me 
mention two important reports recently issued by the Board on 
issues of national research and education policy. With your 
permission, I would like to submit each of these for the 
record.
    [The information follows:]


[Pages 4 - 28--The official Committee record contains additional material here.]



                 Continuation of Dr. Rubin's Statement

    Dr. Rubin. One is the Board's recent report affirming the 
critical importance of Federal support to graduate and post-
doctoral education which offers over a dozen recommendations to 
strengthen graduate education for the future.
    Another is the just released Working Paper on Government 
Funding of Scientific Research, in which the Board urges high 
level coordination of the Federal budget for research and in 
support of that objective, the initiation of a national 
dialogue to develop a broadly accepted methodology for priority 
setting across the fields of science. I would be happy to 
discuss our recommendations more fully during the question and 
answer period.
    Mr. Chairman, the budget before you has the whole-hearted 
approval of the Board in the face of very tight constraints on 
Federal discretionary spending. President Clinton has stepped 
forward to champion a 10 percent increase in NSF's 1999 budget.
    This important commitment to strengthen our national 
scientific infrastructure, which I hope will be shared by 
Congress, will enable NSF to help maintain U.S. world 
leadership in all aspects of science, mathematics, and 
engineering. NSF funding is a vital investment in the Nation's 
future.
    The budget you are considering today will provide the means 
to fund thousands of worthwhile projects across the exciting 
frontiers of all fields of research. It will fund important 
efforts to improve the Nation's education in science, 
mathematics, engineering, and technology.
    As we enter the 21st Century and the third millennium, 
there is much we do not know and need to discover. Think about 
the state of the world 1,000 years ago when we were entering 
the second millennium and Leif Erikson and the Vikings sailed 
the oceans.
    Until recently, our understanding of the very deep ocean 
environment has remained the same as in the days of the Viking 
sailors. NSF investments, under the Life and Earth's 
Environment theme, hold tremendous possibilities for probing 
the mysteries of our natural world, like the very deep oceans.
    Unidentified new life forms thrive in the earth's most 
extreme environments in Yellowstone's Hot Springs, in the sea 
ice of Antarctica, the ocean depths, and they might 
revolutionize medicine, produce new materials for every day 
use, and further our understanding of the origins of life on 
Earth.
    Over this past century, incredible advances have occurred 
in fields like telecommunications. In 1898, telecommunications 
meant Morse Code and Western Union.
    Today, we are grappling with challenges unimagined at that 
time; how to handle the outpouring of information and data 
flowing from satellites, fiber optics, the web, and other 
advanced telecommunications.
    This provides the driving force behind NSF investments in 
Knowledge and Distributed Intelligence. Knowledge and 
Distributed Intelligence, as well as Life and Earth's 
Environments, are exciting programs that cut across numerous 
fields of inquiry.
    While NSF continues appropriately to promote inter-
disciplinary activities, the activities require strong 
disciplines at their cores. The NSF fiscal year 1999 budget 
will allow NSF to maintain core competency while providing the 
flexibility to pursue emerging research opportunities.
    Finally, this budget also is important for improving 
education in science and mathematics at all grade levels. The 
Board strongly believes that we must engage all children in 
inquiry-based hands-on learning so that the next generation of 
workers, researchers, and leaders has the necessary science, 
math, technology, and problem solving skills to keep the United 
States a world leader in the 21st Century.
    High standards with high accountability for student 
performance is the path to improved achievement in K-12 math 
and science. We must act on our high expectations, however, and 
not just declare them. Indeed, the National Science Board's 
response to the recent 12th grade results of the Third 
International Mathematics and Science Study, TIMSS, was swift.
    We have created a Task Force on Mathematics and Science 
Achievement to consider the issues raised by the TIMSS Report. 
This proposed NSF budget would help keep America at the cutting 
edge of science.
    It would enable new discovery, educate the world's best 
scientists and engineers and set the stage for the next 
millennium. It is good for the country, good for science, and 
good for economic growth. Most important, it is also good for 
the American people.
    Thank you, Mr. Chairman. I will be glad to take any 
questions.
    [The statement of Dr. Rubin follows:]


[Pages 31 - 35--The official Committee record contains additional material here.]



    Mr. Lewis. Dr. Lane.

                         Statement of Dr. Lane

    Dr. Lane. Mr. Chairman, Mr. Stokes, and members of this 
subcommittee, I want to begin my remarks by thanking you an the 
other members of this subcommittee for your very generous show 
of support in the fiscal year 1998 budget and in fact in 
earlier years.
    We very much appreciate this subcommittee's assistance and 
bipartisan support for science and for the National Science 
Foundation. We look forward to working with you in this year's 
appropriation process.
    Mr. Chairman, in the spirit of bipartisanship, I wish to 
join you in recognizing Congressman Stokes as he prepares to 
leave Congress at the end of this session. Mr. Stokes, on 
behalf of the entire Foundation, I want to express our 
gratitude for your long-standing support for the National 
Science Foundation.
    You have been an invaluable source of guidance and 
direction. Your leadership will be greatly missed. I 
particularly want to express our appreciation for your support 
and encouragement of NSF efforts in science, engineering, and 
education, as well as our activities in the social and 
behavioral sciences; notably, the Human Capital Initiative and 
the National Consortium for Research on Violence.
    I especially want to thank you for your support and 
continual encouragement of NSF in our activities aimed at 
increasing the participation of women and under-represented 
minorities in science and engineering. We still have a very 
long way to go in this area.
    I think it is safe to say that the barriers to the 
inclusion of under-represented minorities and women in science 
and engineering indeed are greatly reduced because of your 
leadership.
    I very much appreciate that. The Foundation does and I 
thank you for your friendship and support through these many 
years. It is clear that many of these same commitments and 
priorities are reflected in the President's fiscal year 1999 
budget request for the National Science Foundation.
    The fiscal year 1999 request for NSF represents an 
unprecedented vote of confidence from the President. If it is 
enacted, this budget would be the largest dollar increase ever 
in the history of the Foundation, as the President noted in his 
State of the Union Address.
    This investment will help us set the stage for a new 
century of progress through learning and discovery. For the 
coming fiscal year, NSF requests $3.773 billion; a 10 percent 
increase overall; over $340 million new dollars.
    This investment, a part of the President's 21st Century 
Research Fund for America, is all about keeping U.S. science 
and engineering at the leading edge of learning and discovery.
    Above all, we believe that these activities will enable 
advances and discoveries that directly relate to many of the 
most critical challenges facing our Nation as we approach the 
21st Century.
    They will help sustain stable rates of economic growth, 
offer more rewarding careers to our citizens, strengthen our 
schools, make us better stewards of our environment and point 
the way to healthier and more rewarding lives across our 
society.

                          major budget themes

    I have attached to my testimony a more detailed summary of 
our budget request. So, let me just focus on a few of the major 
themes within our proposal. One that I want to highlight today 
is NSF's continued investments in Knowledge and Distributed 
Intelligence or what we call KDI.
    Drinking from a fire hose is how many people describe the 
challenge of coping with the information deluge that is 
flooding society today. As recently reported in the San Jose 
Mercury News, only 7 percent, of the information expansively 
collected in corporate data bases is actually used.
    The rest just sits there gathering the electronic 
equivalent of dust. NSF's KDI investments aim to turn this 
information deluge into a wellspring of discovery, learning, 
and progress. Doing this requires much more than just building 
bigger and better machines.
    It requires addressing some of the most fundamental 
questions and challenges in all of science and engineering--
such as the workings of the brain, how we learn, and the nature 
of intelligent behavior.
    I have long felt that the questions and challenges of KDI 
are best exemplified by the neck-top computer, not the desk-top 
computer. Our own brains are among the most complex, efficient, 
and powerful instruments on earth; we are just beginning to 
understand how brains operate and understand how we learn.
    Understanding the workings of the brain is critical if we 
are to treat disorders like dyslexia, Alzheimer's, and 
Parkinson's. One way to better understand how the brain works 
is to look at it in real time in a way that does not in any way 
affect an individual.
    NSF support has enabled the first real time magnetic 
resonance imaging system view of the brain. This required 
bringing together cutting edge work in statistics, 
neuroscience, and computer science.
    Another facet of KDI that gets a great deal of attention is 
NSF's support of faster, more experimental computer and 
communication networks that will better link researchers and 
educators at colleges and universities.
    We now can have virtual centers with research 
collaborations involving individuals in their home institutions 
all around the country, and indeed all around the world. One 
example is the NSF supported National Nanofabrication User's 
Network, a distributed network or virtual center that some like 
to describe as an arrangement of how we are transforming the 
way discoveries are made.
    High speed connections allow researchers to collaborate and 
remotely use the capabilities and instruments from each of the 
five locations across the country that constitute this network 
or more accurately, this virtual Center.
    You can actually now make materials and engineered devices 
with new properties and promise for applications. You can do it 
from wherever you are around the country. While the virtual 
center concept is an exciting example of how KDI can transform 
discovery, the actual research conducted over the 
Nanofabrication Network is probably even more exciting.
    By using interconnected facilities, scientists and 
engineers are able to create, design, and manipulate ordinary 
objects like ceramics or metals, one molecule or even one atom 
at a time.
    The prefix nano, of course, stands for ten to the minus 
nine or one-billionth of a meter. This is the dimension of the 
atomic molecular world. This is the technology for the 21st 
Century. The general idea of nanotechnology is not new. It has 
been around since Nobel Laureate Richard Feynman outlined the 
idea in a speech in 1959. Only recently has scientists been 
able to glimpse Feynman's vision by actually creating 
rudimentary nanostructures.
    NSF's support over the years has allowed nanoscale science 
and engineering to go from the realm of science fiction to 
science fact.
    One of the most notable NSF supported discoveries was the 
Nobel Prize winning discovery by Richard Smalley and Robert 
Curl of Rice University, and Harry Kroto of Sussex University 
in England, of a hollow form of carbon known as a 
``Buckyball.''
    Subsequent research has uncovered a whole range, a whole 
class of molecules ranging from carbon nanotubes or nanowires, 
only a few atoms in diameter, that could be the basis for a 
stunning array of new environmentally friendly carbon-based 
materials never known before.
    In fact, Mr. Chairman, depending on how you wrap these 
sheets of carbon, how tightly you wrap them and at what angle, 
you can get semiconducting materials. You can get super 
conducting materials with nothing more than carbon in these 
long filaments.
    Some scientists even envision objects that could change 
their properties automatically or repair themselves. When you 
think about it, the idea is not so outlandish. The DNA, in 
fact, does that in our own bodies. DNA can replicate itself 
with incredibly small rates of error. Much of the inspiration 
for nanoscale tech science and engineering comes from the 
biosciences and bioengineering, making nanoscale science an 
ideal example of the integration of the physical sciences, the 
biosciences, and engineering.
    These connections, across seemingly unrelated areas of 
science and engineering, highlight a central feature of NSF's 
fiscal year 1999 request--three integrating themes: KDI, which 
I have selected out with a few examples today, Life and Earth's 
Environment, and Educating for the Future.
    Of course, we will be happy to talk much more about any of 
these themes today. These three themes provide a framework for 
the Foundation's investment strategy. These are each discussed 
in greater detail in my written statement.

                   Conclusion of Dr. Lane's Statement

    In conclusion, Mr. Chairman, let me emphasize that the 
entire NSF investment portfolio sets the stage for a 21st 
Century research and education enterprise that continues to 
lead and shape the information revolution.
    It addresses key national priorities in such areas as 
health, the environment, and nanotechnology that improves 
teaching and learning at all levels of education.
    It commits itself to reaching out and advancing public 
understanding of science and technology. Guiding all of these 
activities is the Foundation's long-standing commitment to 
merit-based investments in learning and discovery that adhere 
to the highest standards of excellence.
    A wealth of evidence testifies to the impressive social 
returns generated by these investments. Recent research on the 
economic pay-offs of research have demonstrated the 
contributions of fundamental science and engineering to 
economic growth productivity and innovation are indeed high.
    As President Clinton noted in a speech given last December, 
half of our economic growth in the last half century has come 
from technological innovation. The sciences supports it.
    This request marks a significant step forward for U.S. 
science and engineering. The requested increase of 10 percent 
provides the level of investment in keeping with the wealth of 
opportunity that science and engineering offer our society.
    In addition, rigorous priority setting within our 
portfolio, combined with our emphasis on the integration of 
research and education, will help position America to remain a 
world leader in the information driven economy of the 21st 
century.
    Thank you very much, Mr. Chairman.
    [The statement of Dr. Lane follows:]


[Pages 40 - 50--The official Committee record contains additional material here.]



                    congressional support of science

    Mr. Lewis.  Thank you, Dr. Lane and Dr. Rubin. We 
appreciate very much your being with us today. Your testimony 
brought to mind an important memory, at least in terms of my 
own lifetime, first by way of your mentioning 1959, but more 
importantly, by the impression that was left by Dr. Rubin's 
rather inspiring presence as well as comments.
    I remember shaving early in the morning. I could hear the 
television set in the other room broadcast the count down as we 
were about to blast off and send man, for the first time, and 
an American, out into space. My twin sons who are now college 
professors, were young kids then. We watched this.
    I walked into the room and watched the very last moments of 
the take off. Listening to those kids talk about the apogee of 
the flight caused me to say, ``Wow, that is a long ways to go 
if one wants to keep up with those people who make-up our 
future.''
    There is a very interesting bridge reflected in this room. 
I cannot help but mention that the work of this committee is 
inspiring because of the variety and mix of responsibilities we 
have that range all the way from Veterans' medical care to the 
fantastic work that is done by this Foundation.
    I think you know that the committee on both sides of the 
aisle strongly supports work in science, whether it be basic 
research or applied opportunities. The request before us 
involves $3.773 billion. As I have indicated, the increase is 
$344 million.
    It is a very sizeable increase, but I must mention that not 
just this committee, but the Congress has strongly expressed 
its support for the sciences. The Speaker has time and again 
publicly indicated that we should be reducing the budget 
everywhere we possibly can, but try to avoid reductions 
anywhere in requests that come forth in science areas.
    That is all very, very encouraging. At the same time, we 
are operating in a world of budget agreements between the 
Administration and the Congress. We live under the budget caps; 
especially within the mix of this budget, Dr. Lane, because of 
your ongoing responsibilities.
    I might mention that one of the difficulties I have in 
looking at this budget is that it presumes we are meeting those 
challenges of the budget caps by way of money or revenue that 
is supposed to come from a tobacco settlement. Yet, most people 
dealing with the practical world, in spite of what I might want 
to do or suggesting that, that money probably is not going to 
be coming forth and the people who drafted your budget at the 
OMB level know that as well. So, I am really asking you to try 
to help us as we go forward with our responsibilities with a 
bit of honest budgeting here.
    I hoped that within our priorities, as we make tradeoffs 
with VA medical care or EPA, that indeed we will be able to 
meet the challenge of this specific request, for it is my 
priority.
    Let us assume we get to the point where you are advising 
the President down there of saying, well, maybe we cannot quite 
meet that requirement. I would guess that we would be first 
responsive to those applied medical kinds of opportunities.
    Maybe the pressures would fall on the research side. So, 
help me begin this practical exchange that we will have over 
time by being pretty specific about if research is under 
pressure, where would you have us consider your priorities?
    Dr. Lane.  Mr. Chairman, we certainly understand the 
pressures on the budget and the President has submitted a 
budget for proposals for the necessary revenues as you have 
described.
    Today, I would like to be responding in my present role as 
Director of the National Science Foundation on behalf of our 
budget.
    Mr. Lewis.  You will forgive me, Dr. Rubin, you know.
    Dr. Rubin.  Surely.

                  priorities for nsf's budget request

    Mr. Lewis.  What do we hope to do with this budget? What 
are we going to get out of 10-percent?
    Dr. Lane.  One thing I would like to remind you of is that 
we get about 30,000 competitive proposals to review every year. 
Of those, we can fund about 10,000.
    There are another 7,500 or so that totally pass muster in 
terms of the quality of the proposals. They are right there on 
the table ready to be funded, but we do not have the resources 
to do that.
    If you add up that amount of money, it is just short of $1 
billion. It is about $900 million worth of fundable proposals. 
Well, this is a competitive process, so that is the way we 
ensure the standards are held high.
    I use it by way of example to suggest that any additional 
funds that are provided NSF will fund outstanding research that 
has been successfully and very positively reviewed.
    We would like to fund more of these proposals. With the 
additional 10 percent, we could fund 600 to 800 additional 
proposals. That would allow us to assure ourselves that we are 
bringing a sufficient number of new investigators, many of 
those being young investigators coming into the field for the 
first time.
    They are our future in science and engineering. The second 
thing we would like to do with this investment is to increase 
the duration of the award. We are able to make awards for a 
period of approximately 2.4 years. Some are longer, some are 
shorter. The average is about 2.4 years.
    We would like to extend that a bit. The number we have in 
mind to get to is 2.7 years. It does not sound like a lot, but 
collectively over the whole portfolio, it cuts down on the 
human overhead of writing proposals and reviewing proposals.
    It makes the system more efficient. The third thing we 
would like to do is increase the average award size. Our 
average award size is of the order of $83,000 this year. Some 
awards are much larger. Some are smaller. I am just giving you 
a sense of what we have on the average.
    We would like to increase that. It is our feeling that we 
are underfunding some of the research projects. We would like 
to increase that average award size, which we would be able to 
do on the order of 7 percent with this budget request.
    Programmatically, we would like to make these investments 
with an emphasis on some of these cross disciplinary areas. 
Life and Earth's Environment is one that I mentioned that I did 
not give examples. KDI is an area I did give examples.
    Finally, Educating for the Future. That is all about how do 
we assure that the knowledge we are delivering in the classroom 
at all levels is in fact appropriate to the needs of these 
young people in the 21st Century; not what they might have 
needed when I was a kid, but what they are going to need for 
their own futures. A lot of what we are talking about in the 
budget request addresses that.

                           budget priorities

    Mr. Lewis.  Maybe I can get you to back up a little. I was 
trying to move towards a little more specific. That is, I 
suggested that maybe in medical accounts, for example, where 
there is applied research results may be looked at in terms of 
priority.
    If research receives special pressure in terms of budget 
caps, then in a reduced environment, what would your priorities 
be?
    Dr. Lane.  Well, I think within the NSF budget, if we were 
not to get the 10 percent increase, the things I just talked 
about would not happen.
    You might say, well gee, it does not sound quite like 
priorities, but I would just remind the committee that 
everything NSF does is core program. We fund competitively 
reviewed proposals.

                     priorities for fy 1999 funding

    Mr. Lewis.  Well, let me ask it another way then.
    Most of your activities within the research account receive 
percentage increases of 10 to 16 percent. I mean, are you 
suggesting that the way we should look at then if there is a 
reduction, is we have got to be taking reductions across the 
board?
    Dr. Lane.  Well, Mr. Chairman, the increases were not made 
across the board.
    Mr. Lewis.  That was why I was trying to ask you to be 
specific.
    Dr. Lane.  They were made with careful thought about where 
we wanted to make those investments. My view would be that if 
our budget comes in lower, the relative allocations you see 
among the different directorates would remain the same, and we 
could explain each one of those.
    Why is one more than another? I will be happy to answer 
your question about that. Those relative allocations would 
remain pretty much the same. The reason, for example, the 
Computer and Information Science and Engineering Directorate 
receives a significant increase has to do in part with our 
emphasis on KDI for the reasons that I have described.
    Even if the budget level were to be lower than our request, 
we are still going to emphasize an investment in that very 
important area of interdisciplinary activities. The same 
applies to Life and Earth's Environment.
    This year, as a part of the $344 million increase, we 
requested $88 million specifically for Life and Earth's 
Environment. That is because we think it is important to do 
more research that addresses environmental concerns. So, if we 
do not have $344 million, we will still set our priorities in 
the same way. We will still emphasize interdisciplinary 
research in these schematic areas.

               education and human resources development

    Mr. Lewis.  Moving just a little, Dr. Lane, from the 
research account which I was dwelling on, your budget also 
applies to education and human resources, that account, where 
there is a total of $683 million; an increase of some $51 
million over 1998.
    Let us assume that similar questions are asked about that 
funding, I presume your response would be similar. You would 
not prefer an across the board cut, but there has to be a 
reduction.
    Dr. Lane.  In the area of Education and Human Resources, 
let me say that, that is the account in which most of our 
education and human resources development activities are found.
    We also present the budget by key function area because 
much education is being supported out of the research 
directorates. There is a table in the budget presentation that 
shows a little more accurately what the activities are that we 
are funding.
    In the area of education and training, we are requesting 
for fiscal year 1999, $737 million, which is a 10.7 percent 
increase which shows the priority that we place on education. 
If one asks, why spread that around in the research 
directorates, the answer is we are trying to emphasize the 
integration of research and education.
    We think improving the education at all levels and 
addressing the serious issue of under-representation is 
something for all of us, all the research directorates, all of 
the research community to be involved with.
    Many of the priorities set in this budget emphasize 
research activities that involve the research directorates. I 
will just mention the CAREER program, which is our young 
faculty program. It is a competitive program which receives 
proposals from faculty within a few years of their initial 
appointment.
    We require that they address not only research, but 
innovative activities in education. We have those peer-
reviewed. We are increasing that program by 16-percent. That is 
an example of the way we emphasize integration of research and 
education.

                  reviewing priorities for nsf budget

    Mr. Lewis.  One of the points that I really wanted to 
emphasize in this first round of discussion is that a budget 
presentation is developed. You necessarily go from your own 
professional review to OMB for some massaging.
    A part of that massage relates to the presumption of 
tobacco funds to flow to us. Dr. Lane, assuming that there may 
be some difficulty with that legislation and thereby that not 
be available, can I assume that you and yours will help us in 
reviewing those priorities to make sure that we are following 
lines that best reflect your priorities? We will take care of 
the committee's priorities. In the meantime, we will be 
interested in that.
    Dr. Lane.  Mr. Chairman, you can certainly count on our 
cooperation in that way. We believe the budget that is 
submitted reflects our priorities.
    We understood that as the appropriation process proceeds, 
there will be continued interactions between the Administration 
and the Congress on the budget priorities. We certainly will 
participate in that.
    Thank you. Mr. Stokes.

                             k-12 education

    Mr. Stokes.  Thank you, Mr. Chairman.
    Dr. Lane, last month there were some press reports about 
the latest international math and science comparisons. For the 
United States, as you know, the news is not too good.
    Although the United States was not dead last in the 
comparison, our 12th graders ranked 16 of 21 in general 
science, 19 of 21 in math skills. Obviously, the impact of the 
situation is not only felt in the classroom, but otherwise.
    Equally depressing is other news. For instance, the 
Washington Post reports today that in Northern Virginia, there 
are 19,000 unfilled high technology jobs. That number is 
expected to grow to more than 100,000 in the next five years. 
If that is the situation here, one would hate to think what the 
situation must be nationwide.
    In 1983, the National Science Board prepared a report that 
included an action plan to make our students first in the world 
by 1995. By 1991, it was obvious that, that goal would not be 
met.
    So, President Bush and the State Governors had an education 
summit in Williamsburg, declared the new goal be met in 2000. 
It seems this issue is really bigger than the National Science 
Foundation.
    It seems that you also still have a very key role in this 
whole picture. Can you just tell us how you view this whole 
situation?
    Dr. Lane.  Well, Mr. Stokes, the National Science 
Foundation remains very strongly committed to playing its 
important role in K-12 education. As you know, the Foundation 
shifted its gears along the way.
    We used to be an agency that focused almost entirely on the 
gifted and talented students in science and mathematics. We 
will still view those young people as very important. Our 
programs do support their activities. Increasingly, we turned 
our attention to the larger challenges. That is science and 
math education for everybody.
    This Nation's future depends on the understanding of all of 
our citizens about not only what science is about, but having 
skills in science and mathematics in an increasingly 
technological world.
    We remain very committed. The TIMSS tests, however long one 
might debate precisely what they mean are very, very 
disappointing.
    All of these young people around the world took their test 
in the same year, 1995--fourth graders, eighth graders, and 
12th graders. The test results are being analyzed in batches.
    The first group to be released, I think, in 1996 were the 
fourth graders. We did pretty well internationally, in both 
science and math. We were better in science, I think, than in 
math, but still pretty good.
    By the eighth grade--those results then released the next 
year--we had slipped considerably relative to other nations in 
the world. By the 12th grade, we were near the bottom, as you 
have described, Mr. Stokes.
    Having seen the eighth grade results, in some sense it is 
not so surprising that we are in even worse shape with our 12th 
graders. That clearly means we have a serious problem. I would 
also remark that the efforts that we have made collectively in 
the nation to try to come to grips with these problems began in 
the early 1990s. They addressed primarily the early grades. It 
is possible that those efforts have begun to impact the fourth 
graders in 1995.
    Some of the good performance that we saw of our fourth 
graders could well have been due to those efforts, not just of 
the National Science Foundation, but many efforts around the 
country.
    Those efforts would not have touched very many of the 
eighth grade students in 1995. They would not have touched the 
12th graders at all. The TIMSS Tests will be repeated when the 
earlier fourth graders are eighth graders in a year or so.
    We will see whether there is some continued progress. I 
think we cannot wait on those kinds of test results. We have to 
move forward aggressively. NSF, with your encouragement, has 
gone boldly out on an effort to work with States and cities in 
rural areas, and districts, and schools to change the whole 
delivery system of science and math education.
    I say boldly because it has not all worked. There are some 
good stories and they are true stories. Then there are some 
disappointments. I think what we are doing there is probably 
the hardest thing we are asked to do. It is probably the most 
challenging thing we are asked to do.
    We try to keep the quality high. We work with the schools 
to ensure that they set the standards that are appropriate to 
their schools, cities, and districts. All we require is that 
they do that. Then we work with them to fund those activities.
    I think we are making some progress. I think it is the 
right direction. We are a small part of the whole in terms of 
numbers and dollars, but our investments have been very highly 
leveraged in State funds, city funds, bonds, and in other ways. 
I think we are beginning to see a real impact.

                    reevaluation of ehr directorate

    Mr. Stokes.  I appreciate that explanation of your view of 
how you view this and how this incremental approach may be the 
way we have to look at it.
    At the same time, I just wonder, in light of, say, the 
hundreds of millions of dollars that the Foundation has been 
spending annually on science education activities, whether you 
feel there is a need for some reevaluation of the science, 
education directorate or not.
    Dr. Lane.  I am sorry; reevaluation of the?
    Mr. Stokes.  The science, education directorate.
    Dr. Lane.  I would make a comment. Then I would like to 
turn to my colleague, Dr. Rubin.
    Mr. Stokes.  Sure.
    Dr. Lane.  I think looking at the whole organization 
structure of NSF is an appropriate thing to do from time to 
time. The Education and Human Resources Directorate, and under 
the leadership of Luther Williams, has continued to emphasize 
this integration of research and education that I talked about 
and has been instrumental in helping us get a larger ownership 
of the challenges.
    So, I think it is appropriate, as Rita Colwell comes on 
board as my successor--a very distinguished scientist from 
Maryland, and I am very excited about the President's 
announcement--as she comes on board, I would encourage Rita to 
have a look at the organization with all of these changes in 
mind that we have seen.
    May I ask Dr. Rubin to make a comment, Mr. Chairman.
    Mr. Lewis.  Sure.

             nsb task force on math and science achievement

    Mr. Stokes.  Dr. Rubin.
    Dr. Rubin.  Thank you. I think Dr. Lane has given you a 
very good summary. We were all delighted with the fourth 
grades, less so with the eighth, and really severely 
disappointed with the twelfth.
    The National Science Board, at its very first meeting 
following those results, spent a fair amount of time and with 
some seriousness discussing this. We have set up a Task Force 
for Mathematics and Science Achievement.
    Our final goal is to have a draft report for our next 
meeting which is in May. The charge to the task force was to 
consider the implications of this report and to investigate 
what other data are available. We are taking that to mean to 
seriously examine how the data are gathered. The TIMSS Report 
is an enormously detailed survey.
    All of the data are reported in satisfying detail, which 
enables us to look at the differences between the students 
abroad and in the U.S., to try and understand what category in 
their education they are.
    It is not that we are questioning the results at all. We 
really want to understand the differences between students in 
the last year of their schooling. This is the way it was put.
    So, with criteria such as age, how many courses in these 
studies they have had we hope that we will come out with a 
better understanding of what the results mean. Perhaps that 
will lead us to an understanding of where we should go next.
    We are also looking into the studies which have been funded 
under NSF auspices which have been very successful. We are 
trying to gather some data on what works. It may be that what 
works in one situation is very different from what works in 
another situation.
    I think we feel if we could bring together a body of 
information that tells us what works, what students respond to, 
we might be able to try to understand where we should go next. 
We think this is a very, very serious situation for the 
country.
    We think the future, both for science and for the country, 
rests in having a citizenship that knows science and knows 
mathematics enough to read the Washington Post and understand 
all of the numbers that greet you daily.
    We support very thoroughly the education initiatives of the 
National Science Foundation. We support the budget for them.

               collaboration with department of education

    Mr. Stokes.  You mention the budget. I note that in your 
1999 budget, you have a collaborative effort with the Education 
Department. Do you think that this may in some measure help by 
tieing into our Education Department on this matter?
    Dr. Lane.  Mr. Stokes, we are very enthusiastic about this 
opportunity to partner with the Department of Education. I 
should say quickly that we have, of course, worked with the 
Department of Education and with other agencies over a number 
of years through memoranda of understanding on a variety of 
programs.
    This is a larger effort. It was a result of the President's 
request to the two agencies to identify how we can better 
partner together and develop a multi-agency strategy for 
addressing primarily middle school mathematics.
    The President is also very interested in science. His 
interest rose out of the eighth grade results. The President 
was disturbed at what he saw when the eighth graders were 
tested. So, he asked us to get together. We put together an 
interagency working group. It was primarily the Department of 
Education and NSF working together.
    We have devised a strategy to address middle school 
mathematics where we think the critical problem is. A 
secondpartnership is in the area of learning technologies where PCAST, 
the President's Council of Advisors on Science and Technology, raised 
this issue with the President and suggested that we really do need to 
address what technology is being used for in the classroom.
    There is no longer a question about whether you want 
technology or you do not, or you want computers or you do not 
want them. They are there. They are happening. Computers are 
coming into the classroom. They are being hooked up to the 
Internet. You have got to address the next question. How do you 
make sure that they are used for good purposes in terms of 
student learning? It turns out that not a lot of research has 
been done on this.
    The second partnership for which we included $25 million in 
our request was for a partnership with the Department of 
Education to do basic research on the technologies of teaching 
and learning. Also included are some competitive large scale 
experiments on technology in the classroom. I have been very 
reluctant to believe that technology was going to be the 
solution to this problem.
    I think we have talked about that before, Mr. Stokes. Given 
the problems we have attracting people to the teaching 
profession, having enough teachers in the field able to deliver 
the courses, I believe we are going to have to figure out how 
to use the technology much, much more effectively to help in 
addressing these issues that we confront.
    So, we are very excited about the partnership. We are just 
getting started talking about how this would be carried out.

                       partnerships with industry

    Mr. Stokes.  Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lewis.  Thank you, Mr. Stokes. Mr. Frelinghuysen.
    Mr. Frelinghuysen.  Thank you, Mr. Chairman.
    Good morning, Dr. Lane.
    Dr. Lane.  Good morning, sir.
    Mr. Frelinghuysen.  And others; thank you very much for 
being here. I thank you for your work on behalf of the National 
Science Foundation. I know you are off to the White House 
likely for new responsibilities, but I want to thank you for 
working hard and putting a human face on a lot of science that 
has heretofore been somewhat dry and too complex to understand. 
I think you have made for many of my constituents the whole 
issue of basic science, fundamental science, somewhat more 
human.
    I appreciate your willingness to travel around the country 
to do just that advocating. So much of what you do is, in your 
own words, explosive, unprecedented, rapid, high speed, breath 
taking; all of those superlatives.
    I would like just to play the devil's advocate for a few 
minutes here. In that portion of your testimony related to 
Knowledge and Distributed Intelligence, I would like to 
substitute a couple of words here.
    The explosive growth in our computing power and 
communications connectively has brought forth unprecedented 
opportunities for our company.
    Let me substitute here Bill Gates, MicroSoft, Gershner at 
IBM, unprecedented opportunities for providing rapid and 
efficient access to knowledge and information for studying 
complex systems and for advancing our understanding of learning 
and intelligent behavior of people and machines.
    Our company's effort aims to improve our ability to 
discover, collect, represent, transmit, and apply information. 
In our company's theme, we intend going on, using your own 
words, to emphasize research on knowledge, networking, 
learning, and intelligent systems, and new challenges to 
computation.
    What I am driving at is that there is a private sector out 
there that has moved forward with a fair amount of ingenuity 
and intelligence, perhaps from the same well source that you 
have been working at the National Science Foundation.
    I would like to sort of ask where you interconnect with the 
private sector. We know their motivation is to make money. 
Indeed, at times, they are willing to pour in. I am not saying 
that there is not some relation to economic benefit.
    They are willing to pour into the private sector into some 
schools. Those are lucky institutions a hell of a lot of money. 
I was just wondering how you cross-pollinate with those types 
of corporate executives, and in some cases corporate geniuses.
    Dr. Lane.  Thank you for that question, Mr. Frelinghuysen. 
Let me also say I really have very much enjoyed the opportunity 
to be on campus with you at Rutgers in particular.
    I know we made a visit there and some of the laboratories 
where we had a chance to see students and faculty working 
together on research projects. I very much appreciated your 
support.
    I guess I will be moving toward the White House, provided 
the Senate gives their affirmation.
    Mr. Frelinghuysen.  The White House will be lucky to have 
you.
    Dr. Lane.  Thank you very much for that.
    I am going to ask Dr. Bordogna to come and to comment just 
a minute on this issue of partnership with industry. It is a 
very important matter for us.
    One of the five goals of our Results Act Strategic Plan has 
to do with making those connections between discovery, which we 
think we are primarily about, in the university laboratories, 
and use and benefit for society's goals.

                  centers collaborating with industry

    That is largely done through coupling with industry. The 
way NSF goes about doing that is to encourage the science and 
technology centers, or engineering research centers that we 
support, to form partnerships with industry so that some money 
comes to the center from industry.
    More importantly, frankly, some people come from industry 
and make it possible for university students and faculty to get 
into the industry. That is really how knowledge and technology 
get transferred.
    All of our center programs have focused on this kind of 
connecting link through those sorts of collaborations. Dr. 
Bordogna is an expert in this area.
    Mr. Frelinghuysen.  The reason I asked that, because 
certainly all of us here are advocates for fundamental science, 
basic science.
    Dr. Lane.  Right.
    Mr. Frelinghuysen.  The word, obviously, is that if the 
Federal Government does not make these types of investments, we 
will not see progress because the private sector is either not 
interested or does not have the capability.
    I just wondered whether there is in fact more capability 
out there knowing the drive of these corporations that they 
perhaps are doing a lot more basic research than perhaps we 
give them credit for.

                       interactions with industry

    Dr. Lane.  May I ask Dr. Bordogna to comment now?
    Dr. Bordogna.  The interaction with industry is eclectic. 
In the centers, of course, it is very formal because a center 
will not operate without a partnership between industry and 
universities.
    Another issue here is big industry and small industry. Jobs 
are created more and more by small businesses. Innovation comes 
in the supplier chain for big businesses. One of the strategies 
is to help universities couple better with small industry.
    As you have said, there is genius out in industry. We would 
like to tap genius from wherever we can get it. NSF prides 
itself in making the best investments because we do it by merit 
review.
    We tap increasingly into industry to get reviewers from 
industry in balance with university reviewers. We will take the 
experts from wherever we can get them. Increasingly, we have 
them from industry. They bring a different perspective on what 
the issue is, too, besides being smart. Each of the 
directorates has an advisory committee and advisory committees 
have industrial people on them.
    I know for a fact, just one example, in the Computer and 
Information, Science, and Engineering Directorate, an officer 
from Sunmicrosystems Laboratories sits on that advisory 
committee.
    We have a program with a strange name called GOALI, Grant 
Opportunities for Academic Liaison with Industry. The idea here 
is to have professors spend some time in industry in a problem-
oriented environment; not necessarily just to go to research 
laboratories, but to get right into the guts of what that 
industry is all about, spend some time there, and take a Ph.D. 
student with them.
    This is a part of integrating research and education; when 
they come back to the university, after an NSF investment, they 
may have changed their view. They will have also tapped into 
some of the genius in industry.
    I can go on. There are a variety of investments here. What 
I am conveying to you is that this is a serious interest of 
ours and that we have a strategy to develop this coupling and 
connection, so as the new knowledge gets developed, it flows to 
good uses.

                            industry and r&d

    Mr. Frelinghuysen.  Industry makes it clear to us that they 
do not plan to invest substantially on the fundamental end of 
the science spectrum where the pay-off is likely to be long-
term. You never know, but likely to be long-term, given the 
realities of the private sector world.
    Dr. Bordogna.  You have made a point. It is interesting 
that you could well-substitute a corporate name in those KDI 
paragraphs and see some similarities in terms of goals and 
objectives. I certainly understand it. So, maybe you have 
disabused me of my feeling that they ought to be doing more.
    We sometimes view these companies in monopolistic terms, 
but in reality, you can be sure they are driving these issues. 
I hope that we are indeed tapping into them.
    Mr. Frelinghuysen.  I thank you for your responses.
    Thank you, Mr. Chairman.
    Mr. Lewis.  Thank you, Mr. Frelinghuysen. Mr. Mollohan.

                         education initiatives

    Mr. Mollohan.  Thank you, Mr. Chairman.
    Dr. Lane, welcome. I join with the Chairman and Ranking 
Member in welcoming you to the hearing. First of all, let me 
complement you for your educational initiatives.
    We appreciate the work in West Virginia. I know what we 
have done with the National Science Foundation and I think we 
are making some real progress. The CATS Program in particular, 
has been notable with the goal of retraining all of the science 
teachers in West Virginia.
    We are very pleased with that, and are showing marked 
increase in the scores of our youngsters in math and science. I 
think we had a 6-percent increase last year.
    At one point, we were under the National average and above 
our regional average. So, we are really pleased with that 
improvement and do thank you for the good work you and your 
staff have done.
    I note that in your request for Educational System Reform, 
you request an increase of $2.7 million to a total of $19.8 
million for the Statewide Systemic Initiative.
    The program currently supports 11 States and Puerto Rico. 
It is my understanding that in the 1999 funding increase 
enables the Statewide Systemic Initiative to continue exemplary 
reform efforts in up to seven states.
    For the Urban Systemic Initiative, you are asking for an 
increase of $11.6 million to a total of $86.75 million. That 
will target 28 U.S. cities with the largest numbers of school-
aged children living in poverty, challenging them to reform 
their science and mathematics curriculum.
    In contrast to these first two initiatives, you are not 
asking for any increase for the rural Systemic Initiative. It 
remains unchanged at $10.5 million and continues to support 
five implementation awards.
    I am just wondering what considerations went into how you 
are dividing the resources between these three Systemic Reform 
Initiatives and why the first two are receiving increases and 
the rural initiative is remaining flat?
    Dr. Lane.  Mr. Mollohan, I would like to have Dr. Williams 
to comment on this. I think it has much to do with the phasing 
of these different reform efforts, with your permission.
    Mr. Mollohan.  Thank you. We very much appreciate Dr. 
Williams' contribution. I think his effort has been terrific.

                     statewide Systemic Initatives

    Dr. Williams.  Thank you. The answer, as Dr. Lane 
indicated, depends on where the three initiatives reside in our 
overall funding scheme.
    Let me start with the States. As you will recall, starting 
in the early 1990s, over three fiscal years, we grew the 
Statewide Systemic Initiatives up to 25 States and the 
Commonwealth of Puerto Rico. They are five-year awards.
    They have gradually phased out such that now we, as you 
indicated, only have 11; five of which are targeted to end in 
fiscal year 1998.
    One of the actions we will take as that program phases out 
is to roll those funds as appropriate, depending on the quality 
of the proposals, into the other two initiatives, including the 
Rural Systemic Initiatives.
    Though we did not request additional monies for it in 1999, 
there is going to be a window because one program is decreasing 
and the others are increasing. So, if we have proposals beyond 
the five implementation awards that we have at the present, 
then they will be funded.
    Mr. Mollohan.  I am sorry to interrupt you, but, that piece 
of your answer makes me more curious, if I understand it 
correctly. If your programs are decreasing with regard to the 
Statewide Systemic Initiatives----
    Dr. Williams.  They are ending, not decreasing. It was a 
five-year award. So, they are ending their tenure.
    Mr. Mollohan.  All right. Some of those initiatives are 
ending.
    Dr. Williams.  Right; the awards are ending.

                      k-8 mathematics initiatives

    Mr. Mollohan.  All right. Then why are you requesting an 
increase in the Statewide initiatives?
    Dr. Williams.  The increases in the Statewide Initiatives 
are to do two additional things. As a part of the joint effort 
with the Department of Education of which Dr. Lane spoke, we 
are going to specifically focus on middle school mathematics.
    Mr. Mollohan.  So, it is a part of your education 
initiative.
    Mr. Williams.  Right. It is a part of the joint initiative 
with the Department.
    Mr. Mollohan.  The ``Educating for the Future'' initiative.
    Dr. Williams.  Right. Of the total $25 million, a small 
fraction of it is going to be used to network, to continue to 
work with the States--leaving aside the fact that they do not 
have Systemic Initiative awards to try to build on what, in its 
efforts, has catalyzed through the Systemic Initiative--to have 
them focus on middle school mathematics.

                 request for rural systemic initiatives

    Mr. Mollohan.  How does that reasoning relate to your lack 
of a requested increase for the Rural Systemic Initiatives?
    Dr. Williams.  They are in their earlier stages. The Rural 
Systemic Initiatives is the least developed of the three 
programs.
    Mr. Mollohan.  That logic makes me think that since they 
are least developed, they ought to be ramping up. If the others 
are coming down, they ought to be reducing. You are requesting 
increases for the Statewide Systemic Initiatives, using some of 
that money for educating for the future, but you are not 
requesting increases for the Rural Initiative. Is it fair to 
say you are in an increasing mode for the Rural Systemic 
Initiatives?
    Dr. Williams.  Well, it has not happened yet.
    Let me perhaps answer the question a different way.
    Mr. Mollohan.  Because nobody is qualifying for grant money 
or not enough people are qualified?

                proposals for rural education activities

    Dr. Williams.  Getting a large pool of quality proposals 
has been more challenging in the Rural Systemic Initiatives.
    Mr. Mollohan.  I am not sure what you meant there.
    Dr. Williams.  Getting a large number of proposals from 
States----
    Mr. Mollohan.  From rural areas.
    Dr. Williams.  Right. Focus on rural school districts----
    Mr. Mollohan. Right.
    Dr. Williams [continuing]. That successfully meet NSF's 
merit review threshold.
    Mr. Mollohan. Am I hearing you saying that you are getting 
quality proposals?
    Dr. Williams. No. I am saying----
    Mr. Mollohan. We are not getting----
    Dr. Williams. It has proven to be more difficult to get a 
large pool of quality proposals.
    Mr. Mollohan. Okay. Is it more difficult than it is in the 
Urban Systemic Initiatives?
    Dr. Williams. It has been.
    Mr. Mollohan. Why is that, do you think?

                    education efforts in rural areas

    Dr. Williams. I am not sure. One thing, as you know in West 
Virginia, in Kentucky and so forth, it is an interstate 
operation. It is a very complex effort we are asking them to 
undertake. The technology component is very challenging.
    Mr. Mollohan. Because of the distance learning components 
involved?
    Dr. Williams. Yes; right. Also, there is an enormous 
deficiency of excellently trained math and science teachers, 
especially beyond the elementary level. They have a variety of 
problems.
    Mr. Mollohan. That is why you have the distance learning 
aspect of it.
    Dr. Williams. Yes, but you need both. In any case, it has 
proven to be more difficult. We have a series of awards that 
are not fully implemented. We work with these school districts 
to try to enable them to be competitive.
    So, the growth is slower, but it has been a reasoned plan, 
if you will, based on what I have just indicated. So, it is not 
a function of interest. It is a function of our expectations of 
the proposal load.

                 resources for education in rural areas

    Mr. Mollohan. My initial reaction to that is why would you 
not apply more resources to shore up the inadequacies in some 
way or to build around the inadequacies, which would address 
those concerns?
    Dr. Williams. In part, we are doing that. You are only 
focusing on the implementation awards. We have what we call 
development awards. These are smaller grants. I think we have 
three of them presently for rural school districts designed to 
try to enable them to be more competitive; exactly your point.
    I do not disagree with, I think, the major point that you 
are making in your observations. This is a priority area. I 
will take seriously your comments. We will see if we can 
actually do more. Doing more really means working with them to 
better position them to be competitive in the process.
    It is greater than just providing technical assistance. It 
means that we have to find a way to provide some program 
support. I do understand what you are saying.
    Mr. Mollohan. When I think about all of the remedial 
programs that we undertake in the Government, I cannot think of 
one I do not sincerely support.
    One that I think we really overlook and do not focus on as 
much as we should is this idea of rural inadequacy; the lack of 
representation of rural areas in the remedial process. We have 
programs that specifically focus on minority populations. We 
have programs that specifically focus on women. But we always 
seem to leave out the low-income population.
    We do appreciate your sensitivity and effort, which have 
been tremendous. However, perhaps unintentional neglect is 
reflected in the fact that the Urban Initiative is getting an 
$11.6 million increase to $86 million. The Statewide Systemic 
Initiative is also getting an increase, but the Rural Systemic 
Initiative is getting no increase.
    The Rural Systemic Initiative continues to support five 
implementation awards. Well, I would not be content with that 
myself. I would say the Rural Systemic Initiatives are 
requesting more money in fair proportion to the other requests 
for increases in order to expand, like you are expanding in 
other areas.
    I may not be right about this, but I want to raise it and 
invite a further dialogue after the hearing.
    Dr. Lane. Mr. Mollohan, it is a really serious issue. I 
think maybe the reason the rural areas have not gotten the 
visibility is because they are not well organized. They are 
spread out, I guess, by definition. The EPSCoR program 
addressed a lot of rural America, I think, in an effective way. 
We feel very good about the program.
    Of course, the Rural Systemic Initiatives are supposed to 
do that also. The point I wanted to make is not to disagree 
with anything you have said in shaking my head, but just 
recognizing that this is an area where NSF's use of the 
competitive peer review process makes it in some ways more 
difficult to do certain things because of the integrity of that 
process. It is extremely important for what NSF does. In fact, 
all of you have been very supportive of peer review and our 
implementation of it, which we appreciate. It may be that we 
just need a more creative approach here so that we do not in 
any way violate the competitive spirit of how we make our 
grants and awards, at the same time, do a better job of 
reaching these important parts of the country.
    Mr. Mollohan. I think you really have been creative by 
working with these groups. I do think Dr. Williams has been 
very creative and out there working hard. Perhaps it is simply 
a resource issue. I do believe you are asking for a little more 
with regard to EPSCoR.
    You are dedicating more of it to the Cooperative Program, 
and if I am here I may want to discuss how that impinges upon 
the base program. I would like to follow up and talk, just 
generally, about the rural issue and how these programs might 
focus on it.
    I appreciate the Chairman's indulgence for allowing me to 
go on a little longer beyond my period. Thank you, Mr. 
Chairman.
    Mr. Lewis. I think Dr. Williams has a comment.
    Mr. Mollohan. I am sorry.

              closing comments on rural education efforts

    Dr. Williams. I just want to make a closing comment. I 
appreciate your comments. I do recognize it is a very difficult 
sector, as you can appreciate. It has been exceedingly 
difficult for us.
    Dr. Lane's comment is the one I was attempting to make. I 
am extremely interested in it. I recognize the societal cost of 
leaving unaddressed all of the very large number of students.
    As you implied, it is a very complicated problem. It is one 
issue in Kentucky. It is quite a different issue if you are 
talking about the Upper Plains where you have the complication 
of State schools, the Bureau of Indian Affairs schools. It is a 
major challenge. I would like to follow up, if you desire.
    Mr. Mollohan. We have got to get to all of those people. 
Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Mollohan, for that interesting 
perspective. Mr. Walsh.

                           enabling teachers

    Mr. Walsh. Thank you, Mr. Chairman.
    Good morning, Dr. Lane.
    Dr. Lane. Good morning, sir.
    Mr. Walsh. It is good to have you in this morning and all 
of the members of your terrific team. I would like to join my 
colleagues and I certainly associate myself with the remarks of 
Mr. Frelinghuysen, and thank you for the service that you have 
provided to the country in this very important role.
    I think the White House will be very well-served by 
bringing you in as their advisor. I think your influence has 
already been shown in the emphasis that the President put 
onscience in his State of the Union Address. So, I wish you all success 
in your tour of duty there.
    Dr. Lane. Thank you, Mr. Walsh.
    Mr. Walsh. You are welcome. You know, I was listening to my 
colleague, Mr. Mollohan from West Virginia, talking about 
rural--the emphasis on trying to bring science into rural 
schools. The thought occurred to me, and just to throw it out 
for comment, if you would like. We have a school in up-state 
New York. It is Kato Meridian School. It is a very small little 
rural school district.
    There is one individual, Earl Billings, who is a science 
teacher.
    He has developed year-after-year a program with the 
students to produce and involve themselves in the solar race, 
the solar powered cars, and they win almost every year.
    They beat MIT. They beat Cal tech. They beat Michigan. They 
beat everybody. In any event, this is the power of one 
individual, just one teacher, to get young people involved, to 
get them interested in engineering and science, to show them 
the results of their work, to show them the discipline that is 
involved.
    It is really remarkable. I asked him how the other schools 
that they race react to them. He said, they do not talk to us. 
He said they have to go back home and explain why some up-state 
New York High School from God knows where beat them.
    It is truly remarkable what one individual could 
accomplish. I just think of it maybe in terms of sending 
missionaries around the country, especially into rural areas, 
finding a way to get these bright motivated people into these 
schools for a year or two just to set-up that standard of 
excellence in science, in engineering, and sort of spread the 
Gospel.
    I do not know what is being done. Maybe they are already 
doing something like that. I do not know if the Congress could 
think about doing something like that, supporting that sort of 
idea.

                            master teachers

    Dr. Lane. Mr. Walsh, we are very much with you on this. We 
are trying a few things. Maybe Dr. Bordogna could comment on 
this.
    Dr. Bordogna. Yes, I would like to comment on it. We talked 
this morning about the investment in education, K-12. We did 
not talk about how we are doing it. The most important 
investment is enabling teachers.
    What you are saying is one example of a lot more we would 
like to see. If we enable the teachers, a lot can be done 
through the power of one individual. Thus what you are 
proposing sounds very exciting.
    We will take the idea back with us, having master 
teachers--and that is a word that is used in the school 
systems--funded in this way to move around the country and 
spend sabbaticals somewhere, as is done in universities.
    Mr. Walsh. That might be a great idea to help them cover 
some of their doctoral costs along the way.
    Dr. Bordogna. The math community has also come to us 
saying, look, why do you not make it possible for young 
mathematicians as they are getting their Ph.D. to possibly 
become interested in K-12 education or spend some time in K-12 
education? Maybe in their post-doc years you can make the 
connections.
    We have some experimental programs in that direction as 
well. The value of a single person is just extraordinary.
    Mr. Walsh. It is remarkable.
    Dr. Bordogna. It has happened in our own lives.
    Mr. Walsh. The kids that this individual works with, I 
think in the nine years I have been here, from that one high 
school, I have appointed two or three of those kids to either 
Annapolis or West Point that drove the car, or worked on the 
car, or whatever. They are going to all of these schools that 
they beat in the race.
    Dr. Bordogna. I would like to add one more comment to this.
    Mr. Walsh. Yes.

          scientist and engineers as resources in the schools

    Dr. Bordogna. This is something we have been thinking about 
and starting to do, but it is not very visible. That is, 
involving the engineering and scientific community all over the 
country. There are scientists and engineers in every school 
district.
    What we are doing, and we are vigorously talking about this 
to leaders of those professional societies who oversee this 
group of professionals, is to train them as a resource for the 
school teachers. So, resources, materials, and enabling the 
teacher is the focus. You have added another dimension to it.

                 higher education in the united states

    Mr. Walsh. Obviously, this TIMSS Study that Dr. Rubin 
talked about showed that we are lacking. We have, I think 
everyone in the world will agree, that we get the best and the 
brightest to come here for post-secondary education, but how 
long can that standard be held high if what is feeding that 
program is not at the level that it should be?
    Dr. Lane. It is remarkable, given the situation in K-12 
education, that our system of higher education remains the 
greatest in the world. It does beg precisely the question that 
you ask. How long can we continue to expect that to be the 
case? I think that is a serious problem.
    Also, we talked much about the cost of higher education. 
Some of that has to do with trying to bring the young people 
along who arrive as freshmen on the campus not having had 
adequate high school education and middle school education.
    The work the Board is going to do in answering the 
questions with regard to TIMSS that Dr. Rubin talked about is 
very important, but some of the answers are pretty clear. If 
the kids do not take the courses, and even if the courses were 
offered, if the teachers are not there to teach physics and 
advanced mathematics, then you know some of the issues that 
have to be dealt with before you can expect to make progress. 
So, we know some of the things that are problems. We just do 
not quite have the solutions yet.

         partnerships for advanced computational infrastructure

    Mr. Walsh. I have a couple of specific questions I would 
like to ask regarding the partnership for advanced 
computational infrastructure and research. This is something 
that we had a rather vibrant discussion about last year.
    I never realized how being in a room full of scientists, 
how big their shoulders get when they are arguing a point. I 
was really impressed with the strength of the arguments. I was 
really fascinated by the whole process.
    Specifically, with Cornell, they were obviously 
disappointed that they were not a part of the next step in the 
super computer project. I think, you know, ultimately the 
agreement that the gentlemen's, gentle persons' agreement, that 
was made with them regarding the future of their science.
    They do have wonderful science there. It was a good 
agreement. I just wondered how you see this program working and 
how the partnerships have developed with the two centers.
    Dr. Lane. Well, the PACI effort is, I think, an extremely 
important one that I believe we made clear in our earlier 
discussions on the matter. The NSF is strongly committed to 
this new kind of partnership. It is moving along extremely 
well.
    The transition has been quite smooth. We do have the 
agreements in place for the phase-out of the centers at Cornell 
and Pittsburgh. We appreciate the cooperation of those 
institutions as we were finally able to arrive at those 
agreements.
    We had many discussions with the presidents of those 
institutions. They are outstanding universities. They are very 
important from NSF's perspective because we have many excellent 
projects at these universities.
    So, we feel very good about the partnership. We have in 
place, in terms of computing power, the capacity that we had at 
the latter stage of the previous Centers program. That was a 
fairly smooth transition.
    We would like to have grown the capacity more rapidly. It 
was resource limited. We expect in future years that we will be 
able to deliver many more powerful supercomputer cycles than we 
can at the present time.
    There are no major problems that we are aware of in 
connection with the transition. The researchers have shifted 
over smoothly, to the best of my knowledge, in terms of moving 
their data and getting their codes running on the new machines.
    As we anticipated, these are working on a much larger 
variety of hardware systems taking advantage of the power of 
these new approaches to computation, and working at many of the 
partner institutions, as well as the central sites. Dr. 
Bordogna has observed this as well. Do you have anything to 
add?
    Dr. Bordogna. I think what we see here is sort of a new way 
of doing this thing with both more powerful computation 
techniques and capabilities, and more accessibility by more 
people who have genius, as you have put it.

                   transferring data at paci centers

    Dr. Lane.  I think the only problem I am aware of is just 
how hard it is to transfer a lot of data from one place to 
another so we can get everybody up. The partnerships had hoped 
to do some bulk transfers of data.
    They have done some of that. In the cases of some of the 
centers that are phasing out, there is a reluctance. People 
simply want to be more cautious about whose data is whose.
    So, they are systematically transferring the data for each 
investigator. We are not aware that there are any serious 
problems, but I wanted to be sure you knew that there is that 
issue in the transition.

                             paci partners

    Mr. Walsh.  You had discussed the possibility of more than 
60 partners. Where are you with that? Are you at that level?
    Dr. Lane.  Yes. I think that is correct.
    I just talked with one of the leaders of the San Diego PACI 
just the other day and noticed they are fully on board. The 
numbers that we want are large. They are fully enabling that. 
They are getting very excited by it.

                 knowledge and distributed intelligence

    Mr. Walsh.  One of the issues that I know Cornell discussed 
with you and maybe Mellon, too, the direction that they were 
going, that they wanted to go, was a little different than what 
you had wanted the PACI Program to do.
    In the conversation you had suggested that the Knowledge 
and Distributed Intelligence Program might fit better into what 
they were trying to do. Did that in fact come true?
    Dr. Lane.  That program announcement is out. There is a 
competition underway. It is a very broad area of research. It 
is really reaching out for the very best ideas of individuals 
and institutions.
    Mr. Walsh.  So, that will be competed also just like the 
others.
    Dr. Lane.  It will be competed. It is underway right now. 
In fact, it is very broad, but it has a couple of key areas, 
one of which is New Challenges in Computation.
    Mr. Walsh.  Thank you very much.
    Dr. Lane.  Thank you, sir.
    Mr. Lewis.  Thank you, Mr. Walsh. Ms. Meek.

                       hurricanes and earthquakes

    Ms. Meek.  Welcome Dr. Lane and the rest of NSF. I am 
pleased to see that you did get a recommended 10-percent 
increase in your budget for the upcoming fiscal year.
    I think that NSF deserves it from the productivity of this 
agency. I am very pleased to report that your relationship and 
your work with some of the minority institutions, particularly 
the largest one in my District, Florida International 
University, in Miami, is succeeding very well.
    Thank you for that. I have visited them. Those projects and 
programs are working very well. My question has to do pretty 
much with hurricanes and disasters. After Hurricane Andrew, 
there was a lot of discussion by a lot of the agencies and the 
National Hurricane Center.
    I think I contacted you about it. In spite of the large 
population of hurricane related incidents, they seem to still 
think that more of your research is directed toward 
earthquakes.
    It is that kind of sibling rivalry. Would you tell me a 
little bit about what has been done in terms of research in 
hurricanes, if it does not take too long?
    Dr. Lane.  Ms. Meek, it is very nice to be with you today. 
I appreciate your strong support for what we are doing. I 
appreciate the feedback on the success of our partnerships in 
institutions in your State.
    I would like to ask Dr. Corell to answer specifically for 
hurricanes and earthquakes. Let me just mention that one of the 
issues is we do have a couple of specific centers with 
earthquakes in their title. They do earthquake research.
    You get some natural visibility. We have a large scale 
climate, global climate, and regional climate effort underway 
that relates to hurricanes. May I ask Dr. Corell to comment?

                     u.s. weather research program

    Dr. Corell.  Thank you very much.
    The NSF has joined forces with NOAA and NASA and ONR to 
implement what we call the U.S. Weather Research Program. It is 
a program that is designed to bring together the results of 
basic research at NSF and the more targeted research of the 
other agencies to do several things.
    One, to strongly increase our capacity to predict 
quantitatively precipitation, which I think you can understand 
is a really powerful part of not only hurricane issues, but 
others such as those we see in California with the El Nino.
    Secondly, it is, in the coming year, targeted at hurricane 
intensity prediction and track prediction, both of which are 
terribly important to folks in Florida and others along the 
East Coast who are exposed to these really severe weathers. 
Being able to predict landfall is a really difficult problem.
    These four agencies now have this. We are one of the 
leading agencies in working on this problem of landfall 
prediction for hurricane tracks and intensity. So, we are 
optimistic that we are going to get to do a better, better job 
on that.
    NOAA, as you know, maintains a major program and effort in 
that regard. NSF, NASA, and ONR are pleased to join forces with 
NOAA to try to expand our knowledge in this area. We have asked 
for a modest, but important increase to help fund that effort.

                   human aspects of natural disasters

    Ms. Meek.  I think that is good because there is a paucity 
of data regarding what happens to people as a result of these 
natural disasters. One example of that is--I just do not know 
how much attention you are paying to the behavioral sciences, 
in addition to the physical sciences which you normally look 
for.
    I wish that you would focus some of your research in that 
regard. This was notable to me after the last disaster in 
Florida. Many of the people that were affected by that disaster 
were very poor people.
    They lived in trailer parks. They lived in homes that were 
almost like shanties. I am just wondering whether I am saying 
that you really need to focus some of your research on the kind 
of effects would those natural disasters have on those people. 
I guess I am saying that there is more to research than the 
physical part of it. The behavioral one; I would like to see 
something done on that. I am just wondering if in your budget 
request you have thought about that.
    Dr. Corell.  Yes, we have. It is an area in which we should 
place additional attention. I would note that in working with 
my colleague, Bennett Bertenthal, who heads up the Social, 
Behavioral and Economic Sciences Directorate at NSF, there is 
increased attention to the human aspects of not only hurricane 
issues, but other natural disaster questions.
    Also, under the leadership of James Lee Witt, the head of 
FEMA, connection between FEMA's programs and activities and 
research efforts have dramatically increased over the last year 
or so.
    We are delighted to have them as a part of the research 
program. They are not formally a part of the weather program, 
but they are formally a part of many other of our research 
activities that impact on global, regional, and environmental 
science.
    We are pleased with that addition. In fact, they are 
beginning to support some research in that area to build the 
connections that you have described of the total picture of not 
only the physical aspects, but the consequences of large scale 
natural hazards and disasters.
    Ms. Meek.  I would like, for the record, if you could 
supply me and the Members of this subcommittee with some of the 
instances of your research in this area. I think it will help 
us in making decisions as to how we can even reflect on some of 
the things other Members have mentioned this morning; the 
social implications, the poverty of the people, and the gender.
    If you watch some of the people who are interviewed on 
television, they are usually poor people. They are usually 
women who are left with their families without places to live. 
I guess I am asking if you will just show me some instances of 
where you are going into that research and funding some 
proposals that will assist in this effort.
    Dr. Corell.  We will be pleased to do so. We will give you 
a comprehensive picture of this hurricane issue as well.
    [The information follows:]
                           Hurricane Research
    The National Science Foundation supports a broad array of research 
related to both the physical aspects of hurricanes--hurricanes as 
weather--as well as the social and behavioral aspects of natural 
disasters--how humans react to and cope with natural disasters.
    Research associated with the physical aspects of hurricanes is 
primarily supported as a part of the coordinated, interagency U.S. 
Weather Research Program (USWRP). One of the three primary goals of the 
USWRP is to improve hurricane track prediction and forecasting--
improving our ability to accurately predict storm tracks that will 
enable the nation to better prepare for these major weather events, 
thus reducing the impact of such storms. Other research on the physical 
properties of hurricanes includes studies of rainfall patterns and 
efforts to increase our ability to predict rainfall amounts, as well as 
examinations of hurricane genesis, development, and dispersal.
    In addition, significant research has and continues to be supported 
which is specifically targeted toward understanding the human 
dimensions of natural disasters. Following Hurricane Andrew, an 
examination of household pre-impact prepared-ness and post-impact 
restoration activities, with a focus on the role of ethnicity in 
disaster response and management, was undertaken. Other research being 
supported includes: an examination of the breakdown, maintenance, or 
reorganization of social control in disaster settings; research on the 
human perceptions of and responses to catastrophic events, including 
individual coping strategies; inquiry into the effect of social 
networks and community response on an individual's response to a 
natural disaster; an examination of the psychological and physiological 
reactions to stress produced by a natural disaster; an assessment of 
ethical issues in the management of natural disasters; and research on 
risky behavior and the purchase of disaster insurance.

    Ms. Meek.  All right. Thank you so much.
    Mr. Chairman, do I have time for one little, bitty one? I 
will wait.
    Mr. Lewis.  Let us see. You have taken just about as much 
time; about two minutes short of the last person.
    Ms. Meek.  Well, I certainly do not want to go any longer.
    Mr. Lewis.  You have got two minutes.
    Ms. Meek.  I will cut off right now, Mr. Chairman.
    Mr. Lewis.  Ms. Kaptur would appreciate that. Ms. Kaptur.

                          extramural research

    Ms. Kaptur.  Thank you, Mr. Chairman.
    Welcome, Dr. Lane, Drs. Rubin and Bordogna. It is good to 
have you back before the Committee. I wanted to ask if I look 
at the total amount of NSF dollars under your jurisdiction, 
what percent of those would be used to fund in-house research 
versus research that is done outside NSF?
    Dr. Lane.  Ms. Kaptur, all of our funding is through this 
competitive process of peer review and proposals. All of the 
organizations and individuals we support are extramural. We do 
not actually have any laboratories that are NSF laboratories.
    We do not operate any facilities or research laboratories 
ourselves. We do this with partners. So, all of the 
laboratories are out in the universities and the colleges. All 
of the facilities like telescopes, ships, and instruments of 
other kinds are operated through universities or consortiums or 
other organizations.
    Other than roughly 5 percent of that money that we use to 
do our business, all of the other money goes out through grants 
and agreements.

               R&D funding for universities and colleges

    Ms. Kaptur.  Of the funding then that goes out, what 
percent of that would go to universities as opposed to other 
research entities that exist?
    Dr. Lane.  The vast majority goes to universities. Let me 
ask Joe Kull if we have a crisp number. We can supply a better 
number for the record. There are a very small number of 
institutions that are not universities, some not-for-profit 
institutions. There is the SBIR grant program which mandates 
that 2.5 percent, I believe, of our R&D budget goes to 
companies.
    I now have some numbers in front of me that say, of the 
total R&D support--that does not include our education budget, 
but what is classified as R&D, that request in 1999 is $2.857 
billion. Of that, we are projecting that $2.233 billion would 
go to universities and colleges.
    Ms. Kaptur.  That is the research budget.
    Dr. Lane.  That is the R&D budget. Then the only thing that 
leaves out is some of the education activities. That is split 
between universities and colleges and K-12 systems, cities, and 
States through programs such as the Systemic Initiatives.

                      distribution of nsf funding

    Ms. Kaptur.  In past years, I have asked if I were to look 
down the list of which universities receive the bulk of NSF 
funding, my guess would be that because projects last over a 
number of years, that there are certain major players that 
always receive the largest share of the dollars. Is that 
impression correct, institutionally I am talking about; not 
individual researchers?
    Dr. Lane.  That is correct.
    Ms. Kaptur.  What information can you provide to the record 
to show that NSF is making an affirmative effort to work with 
universities that might not be in the top 10 or the top 20?
    This would include efforts to have professors from some of 
these other schools serve on the peer review groups that are 
used to make selections. In other words, what efforts are being 
made to try to diversify in the same way as you are working on 
Knowledge and Distributed Intelligence?
    What effort are we making to try to distribute the benefits 
of NSF to worthy institutions that might not be in the top 20 
of the largest traditional institutions?
    Dr. Lane.  Ms. Kaptur, there are many efforts. I could give 
us some examples. Then we certainly will supply a more complete 
description for the record.
    The EPSCoR Program we talked about earlier, of course, was 
specifically designed to address the lack of infrastructure in 
certain institutions in States where there had not been a lot 
of Federal money.
    The problem was felt to be that outstanding faculty go 
everywhere. If they do not have the support structure, it is 
not so easy for them to be competitive in a peer review 
process. It is not a matter of the peer review process being 
biased against one or another institution.
    It really has to do with whether an individual can write a 
competitive proposal and has the laboratory in place, for 
example. That is a very important issue. The EPSCoR Program was 
put together to address that.
    As I indicated earlier, we are very pleased with that 
program. We have seen considerable success of that program. The 
PACI partnership is another example. It turns out the two 
principle sites are California, one of the previous 
supercomputer centers, San Diego and the second central site is 
in Illinois, also one of the previous supercomputer centers. 
Many of these partners now in the larger supercomputer effort 
are in States where the institutions are not in the top 20 and 
in some cases, not in the top 100. There are a number of other 
examples.

                    needs for technological training

    Ms. Kaptur.  If I might share with you an insight and this 
does not even relate to my own District, but it does relate to 
another county in Ohio. I will just get you and your people to 
think about this. We know knowledge is power. We know that more 
education yields a greater productivity in many ways.
    One of our major counties came in to see me and they have 
no institution of higher learning in this particular county. 
They have just had a major shut down of the last Thunderbird 
Plant in America.
    There will be over 5,000 workers that are permanently 
terminated. I can think of a number--Thompson Electronics just 
did that over in Indiana. There are a lot of places in the 
country where in spite of the economy supposedly lifting all 
boats, these boats are sinking.
    I think of the research that NSF does, I think of some of 
the resources you can make available, I know Dr. Bordogna has a 
special interest in this as well. Perhaps NSF can identify some 
places that are truly academically short and facing incredible 
human and economic problems in some of these places.
    I do think that relationships--what happened in this 
particular situation actually, one of our major universities, 
the engineering school, the University of Toledo has now linked 
to this one county that had no higher education institution.
    Prior to that I did not realize it did not have an 
institution of higher learning to develop some engineering 
programming to try to help many of these workers. I might 
encourage you through whatever means you have every year to 
perhaps look at ten places in the Country on a demonstration 
basis, someplace where economics are being hollowed out.
    I think our government, whether it is run at the executive 
level by Republicans or Democrats has been very, very 
inadequate in terms of dealing with the residue of economic 
dislocation.
    Many times that is coupled with a lack of educational and 
scientific presence. To some extent, you might be able to 
marginally help in some of these areas. I would just encourage 
you. I do not know everything that you are capable of doing 
institionally.
    I know the Department of Labor has plenty of charts they 
can show you. I just think that for awhile I attended MIT, in 
Boston. What an incredible place, the ability to generate jobs 
and so forth.
    I have also been in Lorain County, Ohio and some of the 
Indiana counties. It just seems to me that we need a better way 
to connect people who have abilities, but they have very few 
educational resources to draw them up.
    Some of your programs have the possibility of doing that. 
Especially some of these big-time hitters. I remember when I 
was first elected, and I will not say who it was, I did not 
even know that the phones connected in our office in the 
Longworth Building. One of the major hitters was in my office, 
already with their little bag ready for business, and I mean a 
major university.
    They know the system better than I did. I just think that 
many times it gets pretty comfortable in some of those 
environments. So, anything you can do to better connect your 
resources.
    I am not asking for the world, just a few efforts, to try 
to locate some of these places. We have to give people hope; 
people who believe in the work ethic, people who have been out 
there. Then the whole rug is pulled out from under them.

                         technology revolution

    Dr. Lane.  I appreciate your comment, Ms. Kaptur.
    I should have added what I think is something that is going 
to change society and already has in major ways. That is this 
technology revolution that we talked about.
    As we connect up the different parts of the world 
electronically, if we do that intelligently, if we do that in a 
way that makes the system accessible to everybody wherever they 
are, we are going to be able to use that technology to lower 
some of these boundaries.
    Some of them are geographical. Some of them are economical. 
Some are cultural. Some are varieties of different kinds of 
boundaries. The next generation internet program is a 
multiagency program that NSF participates in. It certainly 
reaches more than the top 10 or 20 institutions. It will 
eventually reach many, many institutions across the country in 
the way the PACI has done.
    I think we just need to keep the focus on reaching out and 
realize that smart people and important people are born 
everywhere. Many of them decide to live their lives everywhere. 
If the Nation is going to be strong, then parts of the Nation 
have to be strong.
    We have a role in that. We have a role to try to help build 
with this competitive process, the strength of all of our 
institutions. We are stretched pretty thin sometimes, but we 
are willing to try new things.
    We just have to be creative and ensure we have the right 
kinds of programs to excite the people in these regions and get 
their best ideas and then provide some support. We appreciate 
your comments.

                funding received by top 20 universities

    Ms. Kaptur.  If I could just ask for the record, if someone 
in the Foundation could provide to us for 1980, 1990, and 
perhaps this past fiscal year from your entire budget, maybe 
the top 20 universities that benefitted in each of those years 
and how much money they received.
    I would like to look at a trend over a period of time and 
then make a judgment on the rest and which other institutions 
have been invited to participate at the table. I am just very 
curious about that.
    Dr. Lane.  We will be very pleased to give you a 
comprehensive picture of that. I think it is important to look 
at the whole thing.
    [The information follows:]


[Pages 77 - 78--The official Committee record contains additional material here.]



                  outreach through advisory committees

    Dr. Lane.  Also, I did not respond to your question 
specifically about advisory committees and the reviewers. We 
have made significant efforts to reach out in those 
communities, sometimes to the point that when we call somebody 
up, they say leave me alone. You are always dragging me up 
there.
    My view about that is, I am going to call you again, and 
you might tell me no, again, but that is the only way we can 
really, I think, be more inclusive in the way we do our 
business; but we will provide you with the data so you can see 
for yourself.
    Ms. Kaptur.  Mr. Chairman, do I have time for another 
question or not?
    Mr. Lewis.  I think maybe we had better move on, Ms. 
Kaptur. I really appreciate the line of questioning, though, 
that you were involved in. It should be a priority of the 
Committee. I would appreciate you following through on it as we 
go forward in the next year as well. Mr. Price.

                advanced technological education program

    Mr. Price.  Thank you, Mr. Chairman.
    Dr. Lane, let me welcome you and your associates to the 
Subcommittee and add my congratulations also on your new 
appointment. I believe Federally-assisted science will be 
strengthened with you at the helm of OSTP.
    As I mentioned last year at this time, this hearing is very 
important to me because of the number of NSF funded projects in 
North Carolina. In the three research triangle counties alone, 
there are nearly 350 national science foundation-funded 
projects. I do not think too many other Congressional Districts 
in the Country could make that kind of claim.
    So, we have a large stake in what you do. We are very 
grateful for your leadership. In the limited time we have, I 
would like to focus on the Advanced Technological Education 
Program, the main program through which the National Science 
Foundation relates to our community colleges.
    I came back to Washington after Congress adjourned last 
fall to address a gathering of ATE award winners. Dr. Lane 
seeing you at that event and hearing what you said at that time 
underscored the importance that NSF has put on this program.
    I think you have done a great job of developing this 
program, expanding its reach, and disseminating the results so 
that community colleges across the Country benefit. It is very 
exciting to see the way the community colleges were using these 
rather modest NSF awards to improve science, math and 
technology curricular and teaching methods.
    This is a program that I got started with the help of many 
others six years ago. Ms. Kaptur, for example was an original 
co-sponsor of the ATE Program.
    Last year, our subcommittee increased the funding for this 
program to $31.2 million, that was $2 million above the 
President's request. I want to reiterate my thanks to Mr. Lewis 
and Mr. Stokes for their assistance in getting this done.
    Now, this ATE Program is designed to help community 
colleges improve their science, math and technology education 
programs. In addition, it creates a partnership between NSF and 
the community colleges similar to the one that has been so long 
available to the four-year institutions for the development of 
curricula and teaching methods in the upgrading of this 
Country's advanced technology training programs.
    As we all know, that is where most of the jobs are. That is 
the kind of training most jobs require. I visited one of those 
research triangle firms a few weeks ago and was told that 86 
percent of the jobs at IBM in North Carolina require two years 
or more beyond high school.
    That is where the jobs are. That is where the training is 
going to have to be strengthened. North Carolina has received 
three awards from this ATE Program over the years. I, of 
course, hope that our State community college systems, and the 
individual institutions will successfully compete for more 
awards this year.
    For fiscal year 1999, the President has requested an 
increase in ATE to $33.4 million. I certainly applaud this 
request. I notice that your budget explanation indicates a plan 
to use a portion of this increase for an additional center of 
excellence.
    How many centers are there currently? Do you have an idea 
of what area of research a new center might focus on?
    Dr. Lane.  May I ask Dr. Williams to respond?
    Mr. Price.  Yes. Dr. Williams, we are glad to have you 
here. We appreciate the very close involvement you have had 
with this program and your role in developing it.
    Dr. Williams.  Thank you. Currently, there are ten Centers. 
We expect to add two this fiscal year. The 1999 request is for 
an additional one.

                        focus on new ate centers

    Mr. Price.  Do you have any plans at this moment for the 
focus of those new centers?
    Dr. Williams. No, we do not. All of the Centers are focused 
around a given area in, as you know, science, engineering, 
technology, bio-technology, environmental technology, 
manufacturing and so forth.
    We have shared with potential applicants the areas or the 
focus of the existing Centers to suggest that they think about 
others; though, in fact, there could be duplication.
    What I imagine would happen, Mr. Price, is that in 
communities where there are already several ATE grants, 
individual grants--and across community colleges--people are 
interacting with each other. Those would probably be best 
positioned in terms of the planning process to compete for the 
center. We have not prescribed the area.
    Mr. Price.  So, the areas that you focus on will depend on 
the merits of the applications.
    Dr. Williams.  And the interest, and the capabilities of 
the two-year institutions, plus their industry partners who 
have a substantial role in defining the nexus of the Center.
    Mr. Price.  Well, I think it will be helpful for the record 
if you would just provide a brief listing of the existing 
centers and their foci of attention and also indicate the time 
table for bringing these new centers on-line.
    Dr. Williams.  I shall.
    [The information follows:]


[Page 82--The official Committee record contains additional material here.]



                      Funding Rate of ATE Program

    Mr. Price.  Last year, also you provided for the record 
funding rate information for the ATE Program. Those numbers 
indicated that the rate had decreased, in fact, partly of 
course you are getting more applications.
    The rate had decreased from nearly 40-percent in fiscal 
year 1995 to 30 percent in fiscal year 1996. Can you tell us 
what the funding rate was for fiscal year 1997? I wonder if you 
could give us an estimate.
    If we were to increase, say, the funding to $35 million, 
would that be sufficient to bring that funding rate back to 
that 40-percent figure that we experienced in fiscal year 1995?
    Dr. Williams.  The funding rate for fiscal year 1997 was 
about equal to the previous year; it is low 30s. You indicated 
why there was a significant decrease in the success rate. 
Fiscal year 1995 was the first year of the program.
    So, the budget, relative to the number of competitive 
ideas, explained the result and 30 percent has been true for 
the last several years. Your question of what impact an 
additional $2 million would have on the success rate--perhaps I 
should provide it for the record.
    Mr. Price.  To frame the question a little differently, 
what would it take to bring us back to a 40-percent success 
rate?
    Dr. Williams.  Then most assuredly we would have to provide 
that for the record.
    Mr. Price.  All right.
    Dr. Williams.  That would take a long period to think about 
it.
    Mr. Price.  Either way you want to cut it is fine.
    [The information follows:]
            Funding Rate of Advanced Technological Education
    The table below shows the proposal and award figures for the 
Advanced Technological Education (ATE) program for FY 1994-97. The 
funding rate for the ATE program during this period was 32 percent. If 
it is assumed that for FY 1999, the overall number of high quality 
proposals received and the average award size are similar to the levels 
that prevailed over the 1994-97 period, in order for the FY 1999 ATE 
program funding rate to increase from 32 percent to 40 percent, an 
estimated $4.4 million of additional funding would be required.

----------------------------------------------------------------------------------------------------------------
                                                                 New                                   Funding  
                         Fiscal year                          proposals    New awards  Declinations    rate (in 
                                                               received                                percent) 
----------------------------------------------------------------------------------------------------------------
1994.......................................................          199           51           148           26
1995.......................................................          128           51            77           40
1996.......................................................          127           39            88           31
1997.......................................................          143           48            95           34
                                                            ----------------------------------------------------
    Total, 1994-97.........................................          597          189           408           32
----------------------------------------------------------------------------------------------------------------

                 Effects of Increasing Funding for ATE

    Dr. Williams.  My sense is that by increasing the budget by 
$2 million, since we have really started this quite positively, 
this major effort in the community colleges with the very 
strong industry partners that you know well, I do not think the 
success rate would change very much.
    We simply would fund more excellent proposals if we had an 
additional $2 million. So, it will take more than that. But, 
yes, I will provide it for the record.

                   Informal Science Education Program

    Mr. Price.  Well, we certainly are encouraged by the 
submission of more meritorious applications. That is a sign 
that the program is catching on. We certainly want to keep pace 
with that. We do not want the success rate to fall below the 
point where we are discouraging applicants or not really 
realizing the program's full potential.
    Well, in North Carolina, of course, they are very keen on 
our community college system. We have a new president of that 
system, our former colleague in this body, Martin Lancaster 
from North Carolina's Third District.
    He is off to a great start. We look forward to working with 
the ATE program in helping our system find ways to utilize this 
opportunity more fully and upgrade what we are doing in the 
area of technical training.
    Let me just briefly--my interest also in the informal 
science education program, Mr. Lane. I know this is a program 
that has enjoyed great success over the years. I note though 
that your funding proposal for next year is basically a flat 
funding proposal right around the $36 million level.
    I do not know if you have this figure on the top of your 
head, but if you do or if you do not, you can give it for the 
record. What is the funding rate for that program, for the 
informal science education program?
    Dr. Lane.  I am afraid neither Luther nor I know the answer 
to that on the spot. We will be happy to provide it for the 
record.
    [The information follows:]
                   Informal Science Education Program
    In FY 1997, the funding rate of the Informal Science Education 
(ISE) program was 35 percent; over the period FY 1992 to FY 1997, the 
overall funding rate for the ISE program has been 37 percent. Since 
1992, museums have accounted for 47 percent of total ISE awards. Awards 
to media have accounted for 28 percent and awards to community-based 
and other organizations have accounted for about one-fourth of ISE 
awards.
    Recent trends include more institutional collaborations on 
projects; projects that place more emphasis on science as a process; 
emphasis on involving entire families in hands-on science activities; 
and more exploration of creative uses of interactive technology.

------------------------------------------------------------------------
                                                              Percentage
                                    Number of    Number of        of    
           Fiscal year              proposals    proposals    proposals 
                                    submitted      funded     funded (in
                                                               percent) 
------------------------------------------------------------------------
92...............................          173           53           31
93...............................           97           35           36
94...............................           79           32           41
95...............................           52           22           42
96...............................      \1\ 126           53           41
97...............................           97           34           35
                                  --------------------------------------
    Total, FY 1992-97............          624          229           37
------------------------------------------------------------------------
\1\ Because of a shift of submission dates, some proposals that would   
  have been submitted in FY 1995 were submitted in FY 1996.             

          Outreach Efforts Through Informal Science Education

    Mr. Price.  Well, I do think that is an important program. 
It benefits millions of Americans who visit museums, aquariums, 
and science centers every year. Public television programming 
is supported.
    It is an important outreach effort. I am not sure what went 
into your calculations as to the funding level you would 
request. I would like to know, and I think this subcommittee 
should know, the rate at which you are able to fund meritorious 
proposals in this area.
    Dr. Lane.  We certainly would provide that. I would like to 
add the comment that with regard to these success rates, across 
the Foundation I think I used earlier the figure of 30,000 
proposals, 10,000 awards.
    That is a rough number, but the numbers in the thirties in 
terms of success rate describe quite well a whole range of our 
programs in terms of what constitutes a competitive program.
    With regard to Informal Science Education, our view is that 
increasingly this really ought to become more a responsibility 
of all of the people we support, the laboratories, the 
individual investigators, the centers, than perhaps it has in 
the past.
    There are some outstanding examples where some of our 
research centers have marvelous outreach programs. It may be 
that we could do more to build on that. In general, I just 
wanted to make the comment that I think in the spirit of more 
civic scientists, civic engineers, we really need for all of 
our researchers to be more involved reaching out to the public, 
to the children, helping with the K-12 systems, but more 
broadly working with communities in the way that you have 
described are so important.

                     Matching Funds for ISE Grants

    Mr. Price.  Yes, and interpreting what they do.
    Well, in terms of funding, you are already requiring 
matching funds; are you not, for all of these ISE Grants? This 
is not solely Federal funding.
    Dr. Lane.  That is correct.
    Mr. Price.  Thank you. Thank you, Mr. Chairman.
    Mr. Lewis.  Thank you, Mr. Price.
    I appreciate my colleagues being patient with the Chair. I 
have noted before with this particular agency, the National 
Science Foundation, we do not just get excellent testimony, we 
also get excellent attendance.
    We have gone one round now with the Committee and it has 
taken a full two hours which is really unusual in the 
Committee. It is evidence of the interest on the part of the 
Members, but also the importance of the subject matter.
    Having said that, there are many questions that we are not 
going to get to in a formal way. As I have indicated in the 
past, there will be a number of questions for the record. We 
certainly would appreciate your responding with similar 
interest, as well as diligence.

                      Human Resources Development

    Mr. Lewis.  We mentioned earlier that this will be Mr. 
Stokes' last hearing with NSF at any rate. One of the areas 
where he has played a significant role in stimulating the 
interest of the Chairman, but I also think other Members as 
well, involves what has happened with our 22 agencies and 
commissions for which we are responsible.
    Attempting to bring into focus the reality that it is one 
thing to talk about opportunity across the country. It is 
another thing to insist upon opportunity within our Federal 
government.
    So, I am interested, Dr. Lane, in your responding to some 
of those questions that come under the general title of 
affirmative action. How NSF is doing as it relates to the 
employment base, not just in general, but especially at higher 
levels of employment; those people who are at executive level 
appointed positions, but also at the higher scales of income.
    Dr. Lane.  This remains a very important issue for us at 
the Foundation and a great challenge, I would say at the same 
time. In the last several years or so we have put in place, a 
task force reporting to me in the area of human resources 
development.
    That organization is to address internal and external 
issues having to do with under-representation. Dr. Bordogna 
chairs that task force for me. He is, in fact, aggressively 
pursuing a number of recommendations that we think will help us 
improve our representation at all levels within the Foundation. 
I would like to ask Dr. Bordogna if he would just give a couple 
of examples of the kinds of things we are trying to do here.
    Mr. Lewis.  Yes, Dr. Bordogna.

                         Encouraging Diversity

    Dr. Bordogna.  We are focusing on human resource 
development across the board. So, we are trying to be inclusive 
here. We address the interest we have in the context of the 
whole instead of a separate issue.
    That is one thing that has happened. We are trying to pull 
it together so we can benefit from the resources generally. 
Another sort of intellectual approach to this is since the 
world is so complex, we talked about that a lot this morning 
and increasingly so.
    With technology, in order to get anything done for the good 
of society, you have to bring members to the table from diverse 
points of view. When you have a very complex situation, you 
have to make a judgment at the end on how to do it.
    There is no exact solution and having people at the table 
with diverse intellect is very, very important. This is a 
notion in which we divorce it a bit from the difference in 
ethnic origin, color and so on. We say diversity is important 
intellectually.
    Unless we really invest in that, the Nation is not going to 
prosper. Again, these are notions in which we are trying to get 
the investment in a way that is not as challenging as it is as 
much as it is right now.
    As an example, you generously appropriated money to us this 
year for enhancing infrastructure through minority serving 
institutions, and also for graduate education for under-
represented minorities.
    There was $6 million and $5 million, respectively. It is a 
lot of money. Rather than use it just in isolation to the task 
at hand, we have decided to synergize that with a number of 
issues.

                        Equity in the University

    One issue is that in order to really resolve the issue of 
equity in the university, it is good to have the university 
faculty represent equity. So, we would like to see a faster 
pace of producing graduates who can make the pool larger from 
which universities attract their professors.
    With this $11 million, there are two big pieces. The 
minority served institutions with their infrastructure have got 
to pay attention to ensuring that the students they graduate 
are interested in and know about research and graduate careers. 
On the graduate education part of it, there will be funding to 
hopefully produce a hundred new Ph.D.s with that money. A part 
of the money is being used to influence universities to be pro-
active in attracting and retaining the students once they get 
them.

                  Alliances for Minority Participation

    Another part of this, which is money from a different part 
of NSF, is the Alliance for Minority Participation Program, 
which has been successful in producing more baccalaureate 
graduates.
    Let us take advantage of that now and link it with this 
other $11 million. We create a pipeline here which is directed 
very specifically at having the graduates we are enabling 
through the baccalaureate to go into the Ph.D. programs and 
form a bigger pool from which universities can select faculty.
    This is a very strategic move here. That is the kind of 
thinking we are doing in this group which I chair to synergize 
all of the NSF funds in some way, in everything we do to enable 
all of this to happen.
    Mr. Lewis.  Thank you, Dr. Bordogna.

                      Issue of UnderRepresentation

    Dr. Lane.  We need to address, at all levels, the issue of 
under-representation. It means that we are going to have to 
become more successful, become more aggressive with our efforts 
in K-12 education and with our efforts in graduate education 
and undergraduate education which your committee, Mr. Chairman, 
has helped us with. We are doing everything we can to be more 
inclusive in our advising structure, our review panels, and our 
advisory committees, in hopes that we can then coax some of our 
scientists and engineers who get involved with NSF in that way 
to be willing to come to the building and spend a year or two, 
or maybe a career as program officers, as division directors, 
as assistant directors.
    We must attack this serious problem on all fronts. We are 
very pleased to have brought to our office Dr. Wanda Ward to 
work with Dr. Bordogna to try to implement the strategies that 
he has described.
    Wanda Ward is African-American and has been an important 
contributor to NSF's education efforts for a number of years, 
and a very important addition to our office.
    Mr. Lewis.  We are getting close to the end of the rule. It 
looks as though we will be having a vote or maybe be stuck on 
the floor for awhile. I am worried about the time here and the 
number of questions.
    Our panel does tend to expand on their responses as well. 
So, if we could cut back the time that each of us uses, Mr. 
Stokes, I had intended to use five minutes in the combination 
of my question and otherwise took almost ten. So, that reflects 
the problem.
    Please, you proceed with that or whatever else you would 
like.

                          Workforce Diversity

    Mr. Stokes.  Thank you very much, Mr. Chairman. Once again, 
I appreciate the leadership that you have given over the years 
in terms of the issue that you have just raised with Dr. Lane 
and Dr. Bordogna.
    This, of course, is a very important area. Of course, even 
though I will be leaving at the end of this term, and of 
course, Dr. Lane, you will also be leaving; it is important 
that the Foundation knows and understands the importance of 
this issue.
    It is so important, Mr. Chairman, that you in particular 
raised this question and keep it highlighted in the sights of 
this committee as well as the Foundation. Let me just pursue 
it, if I can, a little bit.
    In terms of the Foundation itself, how well are you doing 
in terms of the placement of minorities in the Foundation 
before we start trying to go out and tell others what they 
should be doing?
    You have to sort of set the example yourself. Can you give 
us some idea of any progress being made within NSF of finding 
and retaining and even promoting minorities?
    Dr. Lane.  Mr. Stokes, to be candid, not nearly as well as 
we would like to be doing. I could give you just an example of 
some results, but we could also submit some more details for 
the record in various categories of employees and various 
minority groups on how we are doing.
    In the summer, at the end of September 1997, we had a total 
of 356 individuals employed in professional occupations with 
the Foundation; of course, our whole work force is about 1,100. 
Of those, 356 are considered in professional ranks. That was a 
decrease of six employees from the previous year in the 
professional category. In comparison, there was a slight 
increase in the relative percentage for all racial and national 
origin categories, except among white employees. So, the 
direction is toward a more diverse population in our 
professional work force.
    I could provide some details with individual numbers for 
the record to show how significant these results are.
    Mr. Stokes.  That would be helpful if you would expand upon 
it in the record for us.
    Dr. Lane.  Yes, sir.
    [The information follows:]
                      Work Force Diversity at NSF
    In FY 1998, the NSF work force consisted of 1,338 Federal employees 
and Intergovernmental Personnel Act employees. The total permanent work 
force population was 1,100. The following table shows a profile of the 
NSF permanent work force by race and national origin for fiscal years 
1996 and 1997, as of October 1 of each year. During this period, the 
overall minority work force decreased by the same one percent as the 
non-minority work force.


                                            NSF PERMANENT WORK FORCE                                            
----------------------------------------------------------------------------------------------------------------
                                                                                                 Change         
                                                                FY 1996      FY 1997   -------------------------
                                                                                           Number      Percent  
----------------------------------------------------------------------------------------------------------------
Black.......................................................          407          401           -6         -1.5
Hispanic....................................................           19           19  ...........  ...........
Asian American/Pacific Islander.............................           38           39           +1         +2.6
American Indian/Alaska Native...............................            2            2  ...........  ...........
Minorities, Total...........................................          466          461           -5         -1.1
White.......................................................          647          639           -8         -1.2
                                                             ---------------------------------------------------
    Total, Work force.......................................        1,113        1,100          -13         -1.2
----------------------------------------------------------------------------------------------------------------

    The professional work force population decreased by six, from 362 
in FY 1996 to 356 in FY 1997. Of the 356 professional employees, 54 
(15%) were minorities and 302 (85%) were non-minorities. The following 
table shows the professional work force profile for fiscal years 1996 
and 1997.


                                           NSF PROFESSIONAL WORK FORCE                                          
----------------------------------------------------------------------------------------------------------------
                                                                                                 Change         
                                                                FY 1996      FY 1997   -------------------------
                                                                                           Number      Percent  
----------------------------------------------------------------------------------------------------------------
Black.......................................................           30           30  ...........  ...........
Hispanic....................................................            6            6  ...........  ...........
Asian American/Pacific Islander.............................           16           16  ...........  ...........
American Indian/Alaska Native...............................            2            2  ...........  ...........
Minorities, Total...........................................           54           54  ...........  ...........
White.......................................................          308          302            6         -2.0
                                                             ---------------------------------------------------
    Total, Work force.......................................          362          356            6         -1.7
----------------------------------------------------------------------------------------------------------------

                    minorities and graduate degrees

    Mr. Stokes.  We will look through and really study the 
picture more carefully. Dr. Bordogna made some comments 
referencing the situation I had a particular interest in.
    We look at the fact that blacks account for only about 3 
percent of the master's degrees awarded in math and science, 
only about 2 percent of the doctoral degrees, and a recent 
issue of Chemical and Engineering News paints a similarly 
dismal picture.
    According to the American Chemical Society Survey, only 2.2 
percent of the Ph.D. chemists and chemical engineers are black. 
That is compared to roughly 30 percent who are Asian.
    Of course, when you look at the whole picture, I saw a 
recent article that said blacks represent 11 percent of the 
U.S. work force. Only 1.1-percent are physical science 
doctorate holders, 1.3 percent of engineering doctorates, 1.4 
percent of computer mathematical science doctorates.
    The picture is extremely, extremely dismal. In light of the 
fact that we do not seem to be making very much progress, I 
have some concern about what are we really doing to improve 
this situation?

    integrating underrepresented minority issue in all NSF programs

    Dr. Bordogna. I would like to continue with the discussion. 
We sort of started with some of my previous answers. The big 
issue here is that we strategically believe you just cannot do 
this by having an investment in a certain piece of what we are 
doing. We would like to have the whole NSF investment impact 
this issue. I will give you two examples. One is that we have a 
new program called Integrative Graduate Education and Research 
Training Program, IGERT.
    It is very important. It is an experiment in how to fund a 
new kind of Ph.D. education. Along with that particular 
intellectual focus, there is another intellectual focus and 
that is, we want grantees to pay attention to the under-
represented minority issue.
    A part of the IGERT proposal has to address this issue. 
Thus, we have embedded the under-represented minority issue in 
a regular program. The leading team at NSF, the Assistant 
Directors, in particular, in their daily work, whatever they 
do, across the more than 3 billion dollar budget, keep this 
issue at the front of their minds. That is one specific 
example.
    Another is that mentoring is important. We now recognize 
this. It is how the real work gets done. It is the one 
catalytic person idea: one good mentor helps solves many 
problems. There is a Presidential award for mentors now. We 
have been through two years of that program, with 20 awardees. 
We have formed them into a group to help us move ahead on these 
kinds of issues. The major issues I am trying to convey are: 
One, the Chief Operating Officer of NSF chairs the issue now so 
it is at the highest level, with the assistant directors in 
full support;
    Two, we brought Wanda Ward in, a very capable, special 
person, to spend 24 hours a day on the issue to make sure that 
we toe the mark on it. And we have changed the way we recruit 
people inside NSF to make NSF different.
    The major strategy is trying to use the entire investment 
of NSF to attack the issue, not just pieces of it.
    Mr. Lewis.  We have to go to vote. I know that Mr. 
Frelinghuysen has at least one question he wants to ask and I 
would presume that the Gentle Lady might, also. Since we are 
not going to be coming back this afternoon, I am kind of 
pushing this.
    Mr. Stokes.  I will yield back, Mr. Chairman. I will have 
additional questions which I will submit for the record.
    Mr. Lewis.  Mr. Frelinghuysen.

                 national institute for the environment

    Mr. Frelinghuysen.  Thank you, Mr. Chairman.
    Dr. Lane, in last year's committee report language there 
was a direction to the Foundation relative to establishing a 
National Institute on the Environment. The Committee, 
``directed the Foundation to study how much, how it would 
establish and operate such an institute, including the 
potential cost of an institute and report to our committee by 
today.'' Is that report done?
    Dr. Lane. Mr. Frelinghuysen, the report is in final stages 
of development. We have been working extremely hard on that 
report. I do not have it today, but I expect to have it up here 
very soon.
    We have also discussed this matter with the Board because 
it is a very important policy matter and the Board has issued a 
statement of principles on the NIE. Of course, our report will 
be consistent with the Board's statement. Could I ask Dr. Rubin 
to comment on that?
    Mr. Frelinghuysen.  Let me get into the record that I 
understand that both Congressman Saxton and Congressman 
Abercrombie wrote in a more recent letter to you, ``Congress 
clearly directed the NSF to prepare a report as to how it would 
incorporate an NEI, not whether it would do so.''
    I think a number of us are concerned that this is a very 
slow process and Members' concerns and this committee's 
direction are not being considered. Dr. Rubin.

                         NSB resolution on NIE

    Dr. Rubin.  The National Science Board has made a 
resolution which was approved by the Executive Committee on 
March 16th. The resolution has four statements. The first 
outlines the NSF's legitimate role in fundamental research and 
environmental research, a role which the NSF is very pleased to 
have and hopes to, in fact, expand, and the resolution also 
recognizes the importance of environmental research.
    The resolution states that NSF can most constructively 
exercise its leadership role in an inter-agency framework, 
coordinated by the White House. We recognize the role that NSTC 
has played in specific environmental issues.
    We think this is something that can be done well with the 
leadership of the White House. We think that a separate entity, 
a separate organization, would not be an effective means of 
achieving the intellectual goals, partly because if such a 
structure were incorporated within NSF, it would duplicate 
existing NSF policies and management structure, and actually 
increase costs. The entire resolution can be placed in the 
record.
    [The resolution follows:]


[Page 92--The official Committee record contains additional material here.]



    Mr. Frelinghuysen.  Something will be coming to our 
attention that relates to the Committee's directive.
    Dr. Lane.  Yes, sir. I stand by my earlier statement. We 
have taken this very, very seriously. We wanted to ensure that 
the report we deliver to this committee indeed is responsive to 
your request.
    Mr. Frelinghuysen.  Great. I expect it very soon.
    [The information follows:]


[Pages 94 - 115--The official Committee record contains additional material here.]



    Mr. Frelinghuysen.  Thank you, Mr. Chairman.
    Mr. Lewis.  We have about a little more than five minutes 
before we vote. Ms. Kaptur.

                    national priorities for research

    Ms. Kaptur.  Yes, Mr. Chairman, I just wanted to thank the 
panelists again and to say that I have particular interest in 
the area of manufacturing, in the transfer of knowledge to the 
industrial sector.
    I have been on the Committee long enough to remember NSF 
was not looking at that. Now you are. That is wonderful for the 
country. We encourage you in those efforts.
    Secondly, the area of serious mental illness and the work 
that is being done in mapping the brain and trying to 
understand the functioning of the human brain. We do a lot for 
our country and for the people who are suffering from these 
incredible illnesses. I would encourage you along those lines.
    Then in the area of agriculture, I just wanted to say that 
I am very interested in any work you are doing or considering 
doing taking a look at the level of population growth in the 
world, in the next century, and what is happening to our arable 
lands globally.
    In this country, we lose about 1.5 million acres a year of 
what we could term prime irreplaceable soils. I think any work 
in this area is a gift to the future. I would encourage you 
along in the work that you are doing there in the environmental 
sciences.

                            closing remarks

    Mr. Lewis.  Thank you very much, Ms. Kaptur.
    To my colleagues, one more time, I appreciate your patience 
relative to our schedule today. Nonetheless, I had intended to 
spend some time dwelling upon the Inspector General and the 
role of Inspectors General within all of my agencies.
    There is not going to be time to do that today. I hope that 
you share with Dr. Colwell that on an ongoing basis the 
Committee is going to be exercising that area relative to the 
role that IGs play in our ability to oversight our committees. 
So, it is an important message.
    From there, Dr. Lane, we look forward to continue to work 
for you in another venue. My hat is off to you for the work 
that you have done. Dr. Rubin, it is a pleasure to be with you 
today as well.
    With that, I must say that the Committee will adjourn until 
Tuesday, April 21st, when we will convene in our other room in 
the Capitol, H-143. Thank you.



[Pages 117 - 410--The official Committee record contains additional material here.]















                               I N D E X

                              ----------                              

                      National Science Foundation

                                                                   Page
Budget Priorities................................................    53
Centers Collaborating with Industry..............................    60
Collaboration with Department of Education.......................    58
Congressional Support of Science.................................    51
Distribution of NSF Funding......................................    73
Extramural Research..............................................    72
Funding Received by Top 20 Universities..........................    75
Industry and R&D.................................................    61
Interactions with Industry.......................................    60
Knowledge and Distributed Intelligence...........................    69
National Institute for the Environment...........................    90
Needs for Technological Training.................................    74
NSB Resolution on NIE............................................    91
Outreach Through Advisory Committees.............................    79
Partnerships with Industry.......................................    58
Priorities for FY 1999 Funding...................................    53
Priorities for NSF's Budget Request..............................    52
R&D Funding for Universities and Colleges........................    73
Reviewing Priorities for NSF Budget..............................    54
Technology Revolution............................................    75

                                  CISE

PACI Partners....................................................    69
Partnerships for Advanced Computational Infrastructure...........    68
Transferring Data at PACI Centers................................    69

                                  GEO

Human Aspects of Natural Disasters...............................    71
Hurricane Research...............................................    72
Hurricanes and Earthquakes.......................................    69
US Weather Research Program......................................    70

                                  EHR

Advanced Technological Education Program.........................    79
Alliances for Minority Participation.............................    87
Closing Comments on Rural Education Efforts......................    65
Education and Human Resources Development........................    54
Education Efforts in Rural Areas.................................    64
Education Initiatives............................................    61
Effects of Increasing Funding for ATE............................    83
Enabling Teachers................................................    66
Encouraging Diversity............................................    86
Equity in the University.........................................    87
Focus on New ATE Centers.........................................    80
Funding Rate of ATE Program......................................    83
Higher Education in the United States............................    67
Human Resources Development......................................    86
Informal Science Education Program...............................    84
Integrating Underrepresented Minority Issue in All NSF Programs..    90
Issue of Underrepresentation.....................................    87
K-8 Mathematics Initiatives......................................    62
K-12 Education...................................................    55
Master Teachers..................................................    66
Matching Funds for ISF Grants....................................    85
Minorities and Graduate Degrees..................................    89
NSB Task Force on Math and Science Achievement...................    57
Outreach Efforts Through Informal Science Education..............    85
Partnerships for Advanced Computational Infrastructure...........    68
Proposals for Rural Education Activities.........................    63
Reevaluation of EHR Directorate..................................    56
Request for Rural Systemic Initiatives...........................    63
Resources for Education in Rural Areas...........................    64
Scientists and Engineers as Resources in the Schools.............    67
Statewide Systemic Initiatives...................................    62
Workforce Diversity...............................................88-89

                             <all>
</pre></body></html>
